<html>
<title> - MAKING THE CENSUS COUNT IN URBAN AMERICA</title>
<body><pre>[Senate Hearing 111-148]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 111-148
 
                MAKING THE CENSUS COUNT IN URBAN AMERICA 

=======================================================================


                                HEARING

                               before the

FEDERAL FINANCIAL MANAGEMENT, GOVERNMENT INFORMATION, FEDERAL SERVICES, 
                AND INTERNATIONAL SECURITY SUBCOMMITTEE

                                 of the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                                 of the

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

              FIELD HEARING IN PHILADELPHIA, PENNSYLVANIA

                              MAY 11, 2009

                               __________

       Available via http://www.gpoaccess.gov/congress/index.html

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs

                               ----------

                        U.S. GOVERNMENT PRINTING OFFICE 

51-025 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
(202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, 
Washington, DC 20402-0001 






















        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           JOHN McCAIN, Arizona
MARK PRYOR, Arkansas                 GEORGE V. VOINOVICH, Ohio
MARY L. LANDRIEU, Louisiana          JOHN ENSIGN, Nevada
CLAIRE McCASKILL, Missouri           LINDSEY GRAHAM, South Carolina
JON TESTER, Montana
ROLAND W. BURRIS, Illinois
MICHAEL F. BENNET, Colorado

                  Michael L. Alexander, Staff Director
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
                  Trina Driessnack Tyrer, Chief Clerk
                                 ------                                

 SUBCOMMITTEE ON FEDERAL FINANCIAL MANAGEMENT, GOVERNMENT INFORMATION, 
              FEDERAL SERVICES, AND INTERNATIONAL SECURITY

                  THOMAS R. CARPER, Delaware, Chairman
CARL LEVIN, Michigan                 JOHN McCAIN, Arizona
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
MARK L. PRYOR, Arkansas              GEORGE V. VOINOVICH, Ohio
CLAIRE McCASKILL, Missouri           JOHN ENSIGN, Nevada
ROLAND W. BURRIS, Illinois

                    John Kilvington, Staff Director
               Velvet Johnson, Professional Staff Member
    Bryan Parker, Staff Director and General Counsel to the Minority
                   Deirdre G. Armstrong, Chief Clerk
















                            C O N T E N T S

                                 ------                                
Opening statement:
                                                                   Page
    Senator Carper...............................................     1

                               WITNESSES
                          Monday May 11, 2009

Hon. Michael A. Nutter, Mayor, City of Philadelphia..............     3
Hon. Michael N. Castle, a U.S. Representative in Congress from 
  the State of Delaware..........................................     6
Hon. James Baker, Mayor, City of Wilmington......................     9
Camille Cates Barnett, Managing Director, City of Philadelphia...    12
Thomas Mesenbourg, Acting Director, U.S. Census Bureau, U.S. 
  Department of Commerce.........................................    23
Norman Bristol Colon, Executive Director, Governor's Advisory 
  Commission on Latino Affairs, Office of Governor Edward G. 
  Rendell........................................................    25
Patricia A. Coulter, President and CEO, Urban League of 
  Philadelphia...................................................    28
Wanda M. Lopez, Executive Director, Governor's Advisory Council 
  on Hispanic Affairs............................................    30

                     Alphabetical List of Witnesses

Baker, Hon. James:
    Testimony....................................................     9
    Prepared statement...........................................    45
Barnett, Camille Cates:
    Testimony....................................................    12
    Prepared statement...........................................    47
Castle, Hon. Michael N.:
    Testimony....................................................     6
Colon, Norman Bristol:
    Testimony....................................................    25
    Prepared statement...........................................    58
Coulter, Patricia A.:
    Testimony....................................................    28
    Prepared statement...........................................    66
Lopez, Wanda M.:
    Testimony....................................................    30
    Prepared statement...........................................    69
Mesenbourg, Thomas:
    Testimony....................................................    23
    Prepared statement...........................................    52
Nutter, Hon. Michael:
    Testimony....................................................     3
    Prepared statement...........................................    41

                                APPENDIX

James White, Policy Coordinator of the Philadelphia Association 
  of Community Development Corporations, prepared statement......    71


                MAKING THE CENSUS COUNT IN URBAN AMERICA

                              ----------                              


                          MONDAY, MAY 11, 2009

                                 U.S. Senate,      
        Subcommittee on Federal Financial Management,      
              Government Information, Federal Services,    
                              and International Security,  
                          of the Committee on Homeland Security    
                                        and Governmental Affairs,  
                                                   Philadelphia, PA
    The Subcommittee met, pursuant to notice, at 1 p.m., in 
Kirby Auditorium, National Constitution Center, Philadelphia, 
PA, Hon. Thomas R. Carper, Chairman of the Subcommittee, 
presiding.
    Present: Senator Carper and Representative Castle.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Welcome. It is an honor to be here at the 
National Constitution Center. I am Tom Carper, and I Chair a 
Subcommittee in the U.S. Senate that has jurisdiction over, 
among other things, the U.S. Census. And it is great that we 
are here at the Constitution Center because among the duties 
that are spelled out in the Constitution for us to undertake on 
an ongoing basis is every 10 years to conduct a Census and to 
count as best as we can the number of people who live in this 
country.
    Earlier this morning, back in our home State, I and former 
Governor Castle visited a public school in our State. And as a 
congressman, he still visits a lot of our schools, as do I. And 
we held a town hall meeting, Mayor, right in your city, my 
city, where we had the fourth and fifth graders from Kuumba 
Academy, K through 5, a charter school, who came and was good 
enough to open up their school. And we had a great 60 minutes 
on the Constitution. And among the things that they learned was 
that in the Constitution, it actually says every 10 years you 
count the people that we have.
    The kids asked great questions about why do we do this. 
What if somebody died the day before you do the count or after 
you do the count? What if a baby was born? Do you count people 
in jail? Do you count people that are homeless? How do you do 
all that? Great questions from fourth and fifth graders.
    We are honored today to have the Mayor of Philadelphia, 
Michael Nutter. Mayor, welcome.
    Dr. Camille Barnett, welcome. You should be welcoming us 
because this is your city. This is a great place, by the way, 
and I am delighted to be here with our mayor. Both the 
congressman and I live in the City of Wilmington. Jim Baker is 
our mayor.
    Mayor, it is great to be here with you, as always.
    I want to welcome one and all, including our audience, to 
the latest in a long series of hearings that our Subcommittee 
has held on the preparations for the 2010 Census. Today's 
hearing will focus on the challenges associated with accurately 
and cost-effectively counting America's cities. My thanks again 
to Mayor Nutter and to the National Constitution Center for 
hosting us.
    The 2010 Census is rapidly approaching with Census Day now 
less than a year away. On April 1, 2010, one of my favorite 
days of the year--but on April 1, 2010, the Census Bureau will 
embark upon what many have described as the largest peacetime 
mobilization in American history. With a $15 billion budget and 
an army of 1.3 million Census takers, the Census Bureau has the 
great responsibility to ensure that nearly 300 million 
residents of our country are correctly counted.
    Finding and counting nearly 300 million individuals in the 
correct location is clearly a daunting task. Census taking has 
become even more challenging in recent years as our Nation's 
population has grown steadily larger, more diverse, and 
increasingly difficult to find. These challenges are compounded 
by the fact that, for a number of reasons, people have become 
more reluctant than they have been in the past to participate 
in the Census.
    During the last Census in 2000, significant progress was 
made in improving response rates and reducing the number of 
Americans who went uncounted. Despite this success, 
undercounting remained a problem in some communities. The 
Census Bureau's own data revealed that in 2000, some 6.4 
million people were missed and another 3.1 million were counted 
twice, producing a net undercount of some 3.3 million people.
    Here in Philadelphia, the 2000 Census failed to count more 
than 19,000 residents. And in my home State of Delaware, more 
than 7,000 people living in New Castle County, home to the City 
of Wilmington, our largest city, were missed.
    What makes these errors particularly problematic is their 
impact on a number of historically, hard to count populations. 
Minorities, renters and children, for example, are more likely 
to be undercounted by the Census, while more affluent groups, 
such as college students and individuals with vacation homes, 
are more likely to be counted more than once. In 2000, Asians 
were missed nearly twice as often as whites, African Americans 
missed nearly three times as often, and Hispanics were missed 
four times as often.
    Reaching out to those who historically are hard to count is 
even more important when you consider that for every 1 percent 
of the population that does not respond to the Census, the 
Census will have to spend about $90 million to go door-to-door 
in an effort to try to count every single person.
    An inaccurate 2010 Census will also leave many States 
without their fair share of Federal dollars. The undercounting 
that occurred in Delaware in 2000 likely cost the State about 
$1 million in Federal funding. At a time when localities are so 
desperate for funds, leaders like Mayor Nutter and Mayor Baker, 
are forced to raise taxes and fees, and consider difficult 
budget cuts. Making sure that all communities get the money 
that they deserve from the Federal Government should be a 
priority. And by virtue of your presence here today, you are 
demonstrating that it is indeed a priority.
    Finally, because Census data is used to apportion seats in 
the U.S. House of Representatives, inaccuracy results in 
undercounted communities being underrepresented in Washington.
    So, as the Census Bureau begins its final preparation for 
2010, we need to make sure that it is reaching out aggressively 
to historically undercounted groups. With less than a year 
until Census Day and the confirmation of our next Census 
Director, hopefully just a couple of weeks away, we look 
forward to the testimony of our witnesses and learning how 
Congress can best partner with the Census Bureau as it works 
for achieving its goals of a complete and accurate Census in 
2010.
    Normally, I would call on Congressman Castle to make his 
statement at this time. But the mayor of Philadelphia, Mayor 
Nutter, is in a tight schedule. We promised to get him out the 
door by 4 o'clock this afternoon--no, I am kidding. [Laughter.]
    We promised to get him out the door by about 1:20. So I am 
going to yield to him and ask him to say whatever he would like 
to say. And we are honored that you are here. Delighted to be 
in your city. We know you are going through a tough time here, 
as we are, just about everywhere. We wish you well and look 
forward to working with you going forth.
    Mayor Nutter.

      STATEMENT OF HON. MICHAEL NUTTER,\1\ MAYOR, CITY OF 
                          PHILADELPHIA

    Mayor Nutter. Mr. Chairman, Senator Carper, thank you so 
much for this wonderful opportunity and, of course, for the 
accommodation with regard to schedule. I teased Congressman 
Castle when we were in the back that I will be pretty brief and 
I will yield the balance of my time to the gentleman from 
Delaware. And so, I will move on, but I do really appreciate 
this opportunity to speak on such an important issue.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mayor Nutter appears in the Appendix 
on page 41.
---------------------------------------------------------------------------
    Mayor Baker, thank you so much for your great leadership 
and work. And I also I want to welcome our Managing Director, 
Camille Barnett, as well.
    For the record, good afternoon. My name is Michael Nutter, 
Mayor of the City of Philadelphia. I would like to thank you 
for this opportunity to speak about the difficult challenges 
faced by the City of Philadelphia in trying to ensure an 
accurate population count in the 2010 Decennial Census.
    A 1999 survey by the U.S. Conference of Mayors estimated 
that Philadelphia stands to forego $2,263 in Federal and State 
funding for every person not counted in the Census. Given 
Philadelphia's current fiscal crisis, with a $1.4 billion 
deficit over the next 5 years, it is imperative that we get the 
2010 Census count right.
    Getting an accurate population count means the Census 
Bureau must count every single person living in the City of 
Philadelphia by April 1, 2010. With a population of well over 
1.4 million as of 2008, based on the most recent Census Bureau 
estimates, that is a daunting, enormous task. The two biggest 
challenges, as we see it, facing the Census Bureau for 
Philadelphia are the following: One, locating and contacting 
every household residing in the city regardless of their living 
situation and, two, once they are contacted, encouraging them 
to accurately respond to and return their Census forms.
    Accurate address listings are critical to the success of 
this process. As you know, the Census Bureau uses a master 
address file based on the list of addresses from the U.S. 
Postal Service. Under the Local Update of Census Addresses 
(LUCA) program, local governments are afforded an opportunity 
to review the master address file for errors and omissions and 
to submit address corrections. The Philadelphia City Planning 
Commission began working with the Census Bureau on this process 
back in November 2007.
    Most Philadelphians live in traditional housing units which 
will be easy to count. However, as a result of the policies 
incentivizing the conversion of vacant and deteriorated 
commercial and industrial buildings to multi-family residential 
properties, a substantial number of Philadelphian residents now 
live in non-traditional structures. We need to ensure that the 
addresses for all of these additional and sometimes hard-to-
find units are recorded in the Census Bureau's master address 
file.
    In addition, the City Planning Commission matches the 
Census Bureau's master address file against a combined file of 
other city address records. In April 2008, the city submitted 
to the Census Bureau almost 56,000 additional addresses not 
listed in the master address file. This represents roughly 10 
percent of all city addresses. We are working to review and 
update all city records of new housing developments to ensure 
the master address file is the most accurate and complete 
postal mail address list possible.
    The downturn in the economy also likely presents challenges 
to obtaining a complete population count. The displacement of 
people through job loss, mortgage foreclosures and housing 
abandonment will complicate the enumeration process. While 
Philadelphia has not seen the great increase in foreclosures 
experienced by other parts of the country, in some parts of our 
city it may be difficult for address canvassers to accurately 
identify occupied housing units amidst foreclosed properties. 
In neighborhoods that are plagued with vacant and abandoned 
structures, it will be difficult to get Census enumerators to 
follow up on Census forms that are not returned.
    As I mentioned earlier, getting an accurate population 
count is dependent not only on contacting all residents but 
also on making sure they return their Census forms. Research by 
the Census Bureau notes that, traditionally, hard-to-count 
populations include economically disadvantaged populations; 
groups with high poverty rates; high unemployment and low 
educational attainment levels and linguistically isolated 
populations; and foreign-born populations with limited English-
speaking skills living in ethnic enclaves. Based on this 
research, African Americans are disproportionately represented 
in the economically disadvantaged category and Latinos are 
disproportionately represented in the linguistically isolated 
category.
    Reaching these disadvantaged populations to get an accurate 
and complete count will be difficult not only because of 
language barriers but also because of suspicion over how these 
data will be used. Therefore, significant and continuous 
outreach efforts are needed to educate Philadelphia's African 
American, Latino, and other disadvantaged communities about the 
importance of the 2010 Census.
    Because of the diversity of Philadelphia's foreign-born 
population, outreach efforts must also be multilingual. The 
Census Bureau must ensure that adequate multilingual Census 
materials and enumerators are available to assist the various 
foreign-speaking communities. They must also work with local 
partners to allay the concerns of foreign-born residents who 
may fear reporting to the INS, or deportation, or others who 
are just suspicious of government.
    To respond to these challenges and achieve an accurate 
count, we are developing a comprehensive approach to improve on 
the city's 2000 Census response rate of 56 percent. The basic 
elements of this plan include, (1) issuing a mayoral executive 
order which will engage city departments and agencies in the 
planning and execution of outreach plans; (2) developing a 
citywide campaign, such as the Complete Count Committee, which 
will target education, marketing and outreach to hard-to-count 
populations; (3) establish a multicultural network on Census 
2010, which will guide our efforts to reach immigrant and 
newcomer communities. This initiative will also target the LGBT 
community and populations in the city with high concentrations 
of undocumented residents. And last, work closely with our 
local school district to promote the Census Teaching Guide 
throughout our neighborhood schools.
    We will, of course, continue our diligent efforts to ensure 
that the master address file is complete, accurate and includes 
all newly constructed and converted housing units so that 
Census forms are properly delivered; cooperate with 
institutions of higher education, city correctional officials 
and housing providers for elderly, ill or other disadvantaged 
populations to accurately record all group quarters' 
population, since many people living in the latter situation 
may also be eligible for programmatic assistance; and support 
comprehensive follow-up by Census enumerators to count the 
residents of neighborhoods most seriously impacted by the 
economic recession and property foreclosures.
    Finally, it is critical that the Census Bureau begin to 
make partnership funds and other resources available to local 
communities for increasing public awareness about the upcoming 
Census. It is only through communication and public 
consciousness raising that we can hope to have a successful, 
accurate count.
    In closing, the City of Philadelphia and my entire 
administration pledges to work closely with our local Census 
Bureau office to overcome the challenges I have described today 
and obtain a complete count in the 2010 Census.
    Thank you very much.
    Senator Carper. Mayor, thank you very much for an excellent 
statement. Obviously, the City of Philadelphia has a great deal 
at stake in terms of getting an accurate account. And from what 
I have heard, what we have heard here this afternoon, a lot of 
the things that need to be done to ensure that we count here in 
Philadelphia, to the best of our ability, every single person, 
I think we are well underway.
    Mayor Nutter. Thank you.
    Senator Carper. I know we promised we would excuse you so 
you can head on. I know you have an 1:30 engagement. You are 
good to come. These are tough times for government. We wish you 
the very best----
    Mayor Nutter. Thank you.
    Senator Carper [continuing]. And look forward to working 
with you going forward.
    Mayor Nutter. Mr. Chairman, I look forward to working with 
you and, of course, Congressman Castle as well. The partnership 
and relationship between Philadelphia and, of course, 
Wilmington, Pennsylvania and Delaware is very strong. Thank 
you.
    Senator Carper. Congressman Castle, before I turn to you, I 
understand there is a 3-minute video that is being prepared to 
be shown.
    Can somebody tell me whether or not we are ready to roll 
that now?
    [Video played.]
    Senator Carper. Well, I sure am glad I do not have to 
follow that. That was great. But a man who is up to the task of 
following that video, and any video I can think of, is our dean 
of the Delaware delegation in the U.S. House of 
Representatives, former lieutenant governor, and my friend, 
Congressman Mike Castle.

      OPENING STATEMENT OF HON. MICHAEL N. CASTLE, A U.S. 
           REPRESENTATIVE FROM THE STATE OF DELAWARE

    Mr. Castle. Well, thank you, Senator Carper. I am very 
pleased to be here. I am not a member of this Subcommittee. In 
fact, I am not even a member of the Senate. So, I am very 
pleased to be able to be here with you and to be able to share 
some thoughts with our distinguished panelists we are going to 
hear from today, and to talk about the Census a little bit.
    It is very interesting that we are in the Constitution 
Center, the basic structure by which our government is run, and 
Census is who we are. And this next Census is vitally 
important. They are all vitally important, but this next Census 
is vitally important. I think lessons have been learned from 
past Census difficulties, and I appreciate what I have been 
reading and hearing about some of the programs.
    I did go to the opening of the Census office outside of 
Wilmington, Delaware and feel that the people I spoke to there 
were well prepared to move forward. And I think we have good 
people working in this. And I think some of the comments being 
made today by our panelists are extraordinarily important.
    I mean, we need to understand the significance of the 
Census. We hear about earmarks, for example, in terms of 
Federal funding. But the bottom line is that most Federal 
funding for programs is done by population, not by earmarks. It 
is done by how many people may live in a State or how many 
people live in a city. And the decision is made that you get 
such a percentage of dollars, whatever that may be.
    You heard Mayor Nutter. I am not sure I got the figure 
exactly right, but I think he said $2,363 for every person not 
counted in terms of dollars lost in various programming. That 
is fundamentally accurate, even if my number is not quite 
right, because money is lost because people are not accurately 
counted. And when you are a city such as we have represented in 
this panel, you lose money from the Federal Government; you 
lose money from the State government. They are also dependent 
upon the Census checks.
    The various cities in making decisions about where services 
are going to be are impacted by Census numbers. Businesses make 
decisions in terms of location, businesses, nonprofits, 
whatever. There is just a lot of dependency upon the Census in 
terms of where we are going as far as the future is concerned.
    The issue of suspicion was raised by Mayor Nutter. Why 
don't people send back this form? There are a variety of 
reasons. I think they are all self-apparent, but we need to 
review them. One is that the people may not be here legally. 
They may not be properly entered into the United States of 
America or they may have a relative who is in that position and 
they make the decision of not sending in any forms to the 
Federal Government.
    In reality, the Census has nothing to do with that and does 
not cross over into immigration issues, and that should not be 
a problem. But, nonetheless, it is a problem in the minds of a 
lot of people. In fact, I saw something in the newspaper this 
morning about a Hispanic group that was urging people not to 
fill in the Census form for that very reason. That needs to be 
discouraged.
    He mentioned language as an issue, and that could be a 
problem. If people do not speak the language, and they receive 
a form in a language they do not speak, they may not want to go 
about getting it into their language, be it Spanish or 
something else. As a result, that form is not filled in.
    Somebody may have a problem in their background. Perhaps 
they committed a crime or something. They are nervous about 
anything coming from the government. They are not inclined to 
fill in forms in these particular circumstances. Somebody else 
might be illiterate. They just may not understand what it is 
they received. It is nice that we have the mailing addresses, 
and I think the Census is doing a great job of doing that, but 
people simply do not want to necessarily respond in that 
particular circumstance. They do not quite know what to do, and 
they just go ahead and throw it out.
    Then there are those who just do not care. Everyone of us 
probably, I know I have, have gotten forms in the mail and 
said, oh, the heck with this, and you throw it away because you 
just do not feel like fooling with it. I hope we do not do this 
with the Census checks. I try not to do that, by the way. But I 
hope we do not do that. So there are a lot of reasons, and 
there are probably others, why people do not necessarily 
respond to the initial mailing.
    Then you get into the whole circumstance of how much we 
have to pay in order to get people to go out into 
neighborhoods, to knock on doors. But all the reasons that I 
have already given you, in many instances, apply to a person 
coming to the door. They still may not want to be helpful and 
cooperative. Perhaps the person answering the door could be 
counted, but perhaps there are eight other people living there 
that never somehow get brought into it. So that is an issue as 
well.
    So we need to do a lot. I think that the Census people are 
doing a great job. Some of the programs that we probably are 
going to hear about today, the Be Counted program, which makes 
Census questionnaires available at various public forums, as I 
understand it, is an important program. And the questionnaire 
assistance centers are important as well, so people can 
necessarily get help in getting their questions answered.
    We have already heard something--I will not reiterate 
them--of people not counted, of dollars lost as a result of 
that. And I know that is a concern of Mayor Baker's as well as 
Mayor Nutter's, and it should be of all of us. That is an 
issue. And often, these are the very people who need the most 
help, by the way. And so, for that reason, we need to make sure 
that they are counted and we are moving forward.
    I think we are all in this together. Now, I believe this 
country is best served by the fact that we count each and every 
person who is here and make sure the various division of money 
pursuant to Census and decisions made by other groups is 
followed up as a result of that.
    For those of you who know Delaware, you realize that we 
only have one member of Congress. That is why the senator can 
call me the dean of the Delaware delegation. I am not remotely 
concerned about getting a second member of Congress. We have to 
almost get an increase of 400,000, or something of that nature. 
But I am very concerned that in Delaware, in Pennsylvania, and 
in every State in this country, we need, if possible, to count 
every single person. And, hopefully, today's session that 
Senator Carper has called will help do that, will dissuade 
people that this is problematic in any way, and will encourage 
everyone to get involved in doing something which I think is 
going to be a tremendous help in the governance and the fair 
apportionment of many different programs in this country.
    I thank you for the time, Senator.
    Senator Carper. Congressman Castle, thanks so much. That 
was a great statement. And thank you very much for making time 
to be here. I was just thinking if we could maybe annex one 
county of Pennsylvania, get another 400,000 people, where you 
would have some company in our delegation there in the House. 
But I do not know. We will have to negotiate with the mayor and 
Governor Rendell.
    Mr. Baker has been our mayor in Wilmington, where the 
congressman and I live, for over 8 years now. He and I both 
spent some time, in our younger part of our lives, in Ohio. I 
think he was born in Fostoria, and later on served in the Air 
Force. We were both veterans. And I appreciate and salute him 
for his service to our country. Elected to Wilmington City 
Council.
    What year was it?
    Mayor Baker. In 1972.
    Senator Carper. One of the youngest ever elected to city 
council in the history of our State. I do not know if they had 
those child labor laws then, but he started at an early age, 
and became the first African American, I think in the history 
of our city and the history of our State, to be elected as 
president of Wilmington City Council.
    He has been a mayor for 8 years. We have had 8 good years 
under his leadership. And they are challenging now, as they are 
for Mayor Nutter and for all other kinds of people, but in 
terms of actually balancing our budget and running surpluses in 
terms of trying to make sure a lot more folks who wanted to be 
homeowners got to be homeowners, and expanding our business 
opportunities. And he does a great job down on the river front 
of the Christina River. We are just very pleased to be 
represented and led by him in the City of Wilmington.
    I am going to call on Mayor Baker, and then I will 
introduce Dr. Barnett.
    Mayor Baker, thank you so much for joining us today.
    Mayor Baker. Thank you very much.
    Senator Carper. We should have carpooled up here, the three 
of us. Congressman Castle and I joke about doing that a lot.
    Mayor Baker. Well, you guys keep changing positions, so I 
do not know how long that is going to work.

  STATEMENT OF HON. JAMES BAKER,\1\ MAYOR, CITY OF WILMINGTON

    Mayor Baker. Thank you very much, Senator Carper. And it is 
good to see you, Representative Castle. I feel like we are 
still in Delaware, actually, talking to each other.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mayor Baker appears in the Appendix 
on page 45.
---------------------------------------------------------------------------
    Senator Carper. Well, this used to be Delaware.
    Mayor Baker. I know.
    Senator Carper. I tell people this used to be Delaware----
    Mayor Baker. The three counties, the lower counties, used 
to be part of Delaware.
    Senator Carper. You gave Pennsylvania its independence.
    Mayor Baker. One time I put in a bill to succeed from 
Delaware and go to Pennsylvania, but they would not let it 
pass.
    But anyway, I appreciate you having me here this afternoon, 
to talk about the Census and how important it is. And I think 
Mayor Nutter hit most of the salient points as to why, but I 
will just go through some of the issues of Wilmington.
    For example, our population is 65 percent non-white. We 
have 20 percent in terms of the population being below the 
poverty level. Twenty-six percent of our population is 17 years 
or younger. And the city's Hispanic population has increased 41 
percent since 1990 to 2000, and it continues to grow. And the 
other problem is that it is not just from one Hispanic group; 
there are a variety of different ethnic Hispanics from 
different countries that are coming to our city also.
    We also suffer from illegal conversions, which I think the 
mayor was talking about, people living in places that they 
ordinarily would not be living in, and also illegally. And 
there is a significant homeless population which has a 
transitory population to it. And we also have people that move 
by large numbers within short periods of time, such as 6 months 
in a location, at a residence or an apartment, and then they 
move to another location. And then within a year, our 
population in the city shifts dramatically from 6 months to a 
year, and that keeps continuously transferring people in and 
out of our city and from neighborhood to neighborhood.
    We also have a traditional undercount as most cities have 
suffered. We have all of the different groups that the Census 
has identified as undercounted in our city, but rental units 
usually make up most of the undercounted in our city. Fifty 
percent of our city's housing stock is rental. It used to be 
different. It was about 70 percent homeowners. Now, we are down 
to 50 percent homeowners, 50 percent rental. We have a huge 
population, 25 percent, headed by females, in terms of our 
city. And some of the things that we are recommending is 
certainly what the mayor has previously talked about, as 
updating information in terms of the Census Bureau leading up 
to the count in April.
    We also believe that the well-funded--and I think he 
referenced that also--media campaign is critical to letting 
people know about the Census, what is and what is not, some of 
the things that Congressman Castle was speaking about that many 
people fear about the Census, that it is a way of finding 
information about them, private or otherwise.
    The other problem is that the media efforts should not be 
just through radio and TV--the traditional modes. I really 
think that there needs to be a strong effort to do door-to-
door, to do the mailings, and all the other things. Bilingual 
messaging as opposed to singular are critical. I think, just 
like in a political campaign, that we have all been in before, 
what do we need? We need people to hit the streets. We do not 
need a lot of messages going out on the telephone and on TV. Of 
course, I cannot afford TV; you guys can.
    But anyways, we do not just need the TV messages in the 
traditional mode. We really need people who can go out on the 
street and understand the populations that they are dealing 
with. Sometimes it is the messenger that makes a difference as 
opposed to just having people talking to people. Also, we feel 
it is imperative to have a secretary appointed for the Commerce 
Department.
    I do not need to repeat the Census in terms of the 
problems, in terms of education and all the rest, which we have 
found is a critical point as to why some people do not get 
involved in terms of filling out the information, and I will 
not give you those statistics.
    The mayor actually helped me very much because I really cut 
down the--I was re-leafing through every page I could take out 
while he was talking. Most of you know me; I hate text. I hate 
reading speeches. And if I do not have to, I will not. I am 
sort of like Joe Biden. I get into trouble because I talk off 
the cuff.
    Senator Carper. You might have to run for vice president 
next time.
    Mayor Baker. But anyways, I think that we all know that it 
has to be well organized, everybody working together. We have 
worked with committees, the nonprofit community, the church 
community. I think one group that is left out of dealing with 
Census are the landlords. Landlords come in contact with their 
people all the time. Now, sometimes the landlords do not want 
anybody to know who they have in a house either because they 
know they are either into drugs or something else. And they get 
cash payments instead of real payments, so they do not have to 
declare it on their taxes. So they do avoid sometimes the legal 
side of things just so they can make the money. But there are 
good landlords who--we have a group in our city that we work 
with on a regular basis. It would make a lot of difference in 
terms of who is there and who is not there and who can be 
contacted.
    Last, we feel that the President can have a lot to do with 
promoting the whole issue of the Census because he is well 
respected, even though Fox and Rush Limbaugh and all those guys 
always beat up on him. But they are the minority now and who 
cares what they think.
    So I think that it is very important because we lose a lot 
of money by not having the count correct. And we are willing to 
cooperate with the Census Bureau and others who wish to make 
this work out in a fine fashion so we can get a true figure of 
who is really there. And I think it makes a lot of difference 
for the schools as to what kind of resources they need to 
teach. It makes a lot of difference in terms of carrying out 
the law, in terms of law enforcement and understanding what 
things are and are not. It makes it easier to govern if you can 
understand all of your population as opposed to just part of 
the population.
    So that is my take on it, and I appreciate very much having 
both of you here and thank Mayor Nutter for having us in his 
city. If Pennsylvania wants to give us some more people--of 
course, Mayor Nutter does not want another person down there 
running for Congress. He is perfectly happy being the only one.
    So thank you very much for having me.
    Senator Carper. Mayor, thank you very much. That was a 
wonderful statement, and we are grateful that you made the time 
to be here. Thank you for your leadership of our city and for 
your testimony today.
    Dr. Camille Barnett, I said to Mayor Nutter as he was 
getting ready to leave, and we shook hands here at the middle 
of the stage--I said to him, ``You know, I could barely see Dr. 
Barnett's lips move when you spoke, Mayor.'' He acknowledged 
that he had been working on that for a while, and you have to 
be quite good at it.
    But I understand you are the Managing Director for the City 
of Philadelphia.
    Ms. Barnett. I am.
    Senator Carper. And I am told that you have the 
responsibility for the management of all city operations, and 
you also have more than 10 years of experience in city 
management.
    Would that be this city or other cities as well?
    Ms. Barnett. Other cities.
    Senator Carper. Well, what other cities?
    Ms. Barnett. What other cities? Sunnyvale, California; 
Dallas, Houston, Austin----
    Senator Carper. Did you say Sunnyvale, California?
    Ms. Barnett. Yes.
    Senator Carper. Where I used to live when I was a naval 
flight officer. How about that? We call it sunny Sunnyvale.
    Ms. Barnett. Sunnyvale. Lots of cities in Texas, and 
Washington, DC, and then here in Philadelphia.
    Senator Carper. Great. And how long have you been the city 
manager here now?
    Ms. Barnett. Since the mayor was elected, so a little over 
a year.
    Senator Carper. OK. Does it seem that long?
    Ms. Barnett. Yes. [Laughter.]
    Senator Carper. Would you care to tell us----
    Ms. Barnett. There has been a lot going on.
    Senator Carper. Well, we are glad you are here. Thanks for 
taking on a tough job, and you are recognized to speak.
    Ms. Barnett. Great. Thank you.
    Senator Carper. If you get into about the second hour, I 
will probably rein you in because we want to get to the second 
panel.
    Ms. Barnett. Actually, I think my job is also easier. I am 
just going to underscore some of the points that Mayor Nutter 
made.

STATEMENT OF CAMILLE CATES BARNETT,\1\ MANAGING DIRECTOR, CITY 
                        OF PHILADELPHIA

    Ms. Barnett. For the record, I am Camille Cates Barnett, 
and I am Managing Director for the City of Philadelphia. There 
are several reasons, that I think Mayor Nutter summarized, that 
an accurate account is important to the people in Philadelphia, 
and I think in most of the big cities, but particularly big 
cities that are on the East Coast.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Barnett appears in the Appendix 
on page 47.
---------------------------------------------------------------------------
    The first reason that it is important to us in Philadelphia 
is like in the Federal and State Governments, we use the Census 
for our own political jurisdiction drawing. So for our city 
council districts, as well as many of our other administrative 
districts, we use the data from the Census. Our numbers are a 
little different than the one I saw in the film about the 
amount of Federal money that is distributed based on population 
counts. I guess the 2007 Brookings study estimated that it was 
$377 billion. So you cannot ignore the importance of the Census 
data being correct for you to get allocations from Federal and 
State Governments that really do match your population.
    There are over 170, at current count, Federal and State 
programs, that use population in their funding formulas, and 
this is before we count anything with the Recovery Act. So 
these are just the ones that we have been dealing with since 
before the Recovery Act.
    The figure that the mayor quoted is from a 1999 survey from 
the U.S. Conference of Mayors, and it really brought this 
funding formula down to the very level of our local economy. 
For every person that we miss in the Census, the U.S. 
Conference of Mayors estimates that Philadelphia foregoes 
$2,263. And as the point has been made before, often the people 
who are missed are the people who are most in need of the 
funding that is missed. So it is doubly important to get these 
traditionally undercounted populations served.
    We have also been using the Census information in our own 
planning and programming effort. One of the things that we have 
started with this new Administration is a program called Philly 
Stat, which is like a city stat program in other places, where 
we look at population trends and city distribution of services 
and what results we are producing. All of that information uses 
Census information for us to analyze our own effectiveness by 
neighborhoods. So we need to know not only the baseline of 
where we have been but also to track our progress.
    All of us are interested in economic recovery, and it is 
important to notice and to note that the Census data is also 
used by the private sector in ways that very much influence the 
economic health of large cities because this is how they decide 
a lot about their investment decisions, the number of people 
and also educational level, where the population is. There are 
many pieces of information that the Census collects that really 
is important in terms of location and expansion decisions that 
the private sector makes.
    Alyssa Stewart Lee, in her article from the Brookings and 
Urban Market Initiative, cites the U.S. Census Bureau as being 
``the foundation of private sector demographic data used for 
retail decisions.'' So in this time when we are really 
interested in the health of our business communities, having 
accurate information from the Census is important.
    We also know that this is not a small task, but we know 
that it is one of our most important. In fact, I brought along 
the Philadelphia plan, which is our one-page strategic plan 
that we have put on a business card. And one of the things that 
we do is to have measures of how well we are doing. Because we 
know that people vote with their feet, it is important for us 
to use our total population as one of our key performance 
indicators. In fact, for Mayor Nutter's recovery and jobs 
objective, which is one of four that we have for this city, one 
of the key performance measures is to add 75,000 people in 
population in the next 5 to 10 years.
    It is important, particularly for cities that have gone 
through economic transition and population downturns, to be 
able to demonstrate that we are on the way back. And the way 
that we can demonstrate that is to be sure that everyone who is 
here is counted fairly. So for a number of reasons, it is 
important for us that the Census number is right.
    Now, as the mayor said, there are two major challenges that 
Philadelphia faces that I do not think are different from other 
places, but we certainly see them here. One is locating each 
household, and two is getting the form returned. So one of the 
things that we have been working with in terms of the local 
Census Bureau here is getting those address lists complete.
    One of the things that the mayor mentioned that I think is 
worth emphasizing is that, particularly in the redevelopment of 
Philadelphia, a lot of our redevelopment strategy has the use 
of non-traditional structures for housing. So these are 
economic development activities, not only the kinds of non-
standard ways that the mayor talked about from Delaware, but 
really part of our way of re-using buildings and getting the 
population to stay in the city. And these are the kinds of 
multi-unit, non-traditional places that are typically 
undercounted. So because of our particular development pattern 
and our particular economic strategies over the last decade or 
so, it is particularly important to the City of Philadelphia 
that these residential units be counted. We have estimated that 
since the last Census, since 2000, we have added more than 
22,000 of these converted units. So it will represent a large 
portion of the address file that we need to make sure is 
complete.
    I think the mayor mentioned that for this and other 
reasons, we have already given the Census Bureau an additional 
56,000 addresses for Philadelphia alone. Just as a way of 
estimating that, that is about 10 percent of all of our 
addresses. So it is a significant amount for the City of 
Philadelphia.
    Once this process is completed and we get started, we do 
not have, as you know, but 120 days to complete the master 
address file and to update and review all the recordings. We 
want to be sure that we have as complete a count as possible 
and are really looking forward to working in close partnership 
with the Census Bureau here to make sure that that is accurate.
    So we also want to be sure that we get people that are not 
only living in our traditional whole units or these converted 
housing units, but also residents who live in group quarters, 
such as school or colleges, which we have a lot of in this 
area, nursing homes, boarding homes, correctional facilities, 
and shelters for the homeless, several of the kinds of 
populations that this hearing has already indicated are 
traditionally undercounted.
    So these are the things that I think are of interest to us. 
But I think one of the things that has really been brought to 
mind recently is how much this particular process affects us 
now that we have a downturn in the economy. Because one of the 
things that we notice in this downturn is that it also means 
displacement for people. So when people lose their job, or have 
their mortgages foreclosed, or abandon housing, this is going 
to complicate the counting process.
    So Philadelphia has not seen as large an impact in terms of 
these negative effects of the economic downturn as other cities 
have, but I do not think there is a single large city in the 
country that has not had some of this. And a strategy so that 
it is fairly accounted for in the population count is something 
that I think is in all of our best interest.
    So one of the things that we also know is that from the 
research on what is undercounted, Philadelphia as a city, as 
was talked about in Delaware and other major cities, the people 
who live in cities are the people who are most likely to be 
undercounted, those who are poor and those who are 
linguistically isolated. One of the things that I think is 
important to recognize is that 44 percent of all current 
Philadelphians are black and 29 percent live in poverty. The 
reported unemployment is about 9 percent in this population, 
and we believe the number is probably higher.
    So our black population also has a lower level of 
educational attainment; 23 percent have a high school diploma, 
and only 13 percent have college degrees. You will notice on 
our Philadelphia plan, these are things that the mayor has 
targeted as changes that we want to produce in the City of 
Philadelphia, but we also know that while we are getting the 
Census data, that we need to be cognizant that these are people 
that need special outreach.
    You have already talked about Latinos being 
disproportionately represented. In the linguistically isolated 
category, Latinos in Philadelphia count for 11 percent of our 
estimated population, which is almost 155,000 Latinos. Three-
quarters of this population, which is a little over 110,000, is 
from Puerto Rico. For Philadelphia Latinos, 43 percent live in 
poverty; reported unemployment is 7 percent. And, again, the 
true number is probably much higher. And educational attainment 
for the Latino population also trails the citywide average; 
that is 39 percent have less than a high school diploma and 
only 10 percent have college degrees. And very significantly, 
over a third of this population speaks English less than well.
    One of the things that we have done is to pay a lot of 
attention recently, in an initiative called Global 
Philadelphia, to address the language capacity of many of the 
people that we serve. And we know from the work that we have 
done to try to make our own local government services 
accessible to these populations, that we are not just talking 
about Spanish. We have many different languages that are 
regularly spoken in Philadelphia, and they include things like 
Vietnamese, Chinese, and Ukrainian. There are many of these 
populations that we are struggling to reach, and I expect that 
we will have not only linguistic but cultural barriers in many 
of these populations to get full participation. So we want to 
respond to these challenges to receive the accurate count.
    In Philadelphia, the last Census we had a 56 percent 
response rate. We want that to be higher. We think it needs to 
be higher to really be confident in the count. And so, Mayor 
Nutter has instructed us to do several things to help that.
    First of all, he plans to issue a mayor's executive order, 
which will instruct city departments and agencies to continue 
their planning and the execution of these outreach plans. The 
mayor's executive order will also develop a city-wide campaign, 
which is much like your complete count committees that you talk 
about, to reach these hard-to-count populations.
    We will also establish a multicultural network on Census 
2010 to guide our efforts to reach immigrants and new-coming 
communities. This initiative will also target the lesbian, gay, 
bisexual, and transgender communities and populations in the 
city with high concentrations of undocumented residents. And we 
will be working closely with the school district, as the mayor 
said, to promote the Census Teaching Guide throughout all of 
our neighborhood schools.
    We will continue our work on the master address file to be 
sure that everyone is counted. We will work with our 
institutions of higher education, correctional officials, and 
other places where groups of people live to be sure that we are 
counting all of those. And we will support a comprehensive 
follow-up by the Census counters to count the residents of 
neighborhoods that are most seriously impacted by poverty, 
foreclosures, and other issues.
    Finally, as the mayor said, we think it is important that 
the Census Bureau begin to make partnership funds and other 
resources available to local communities. You can appreciate 
that there is not a lot of extra money around to begin some of 
the outreach that is really needed to have an accurate count by 
April 1, 2010. So we want to participate very closely in the 
communication process and the public consciousness raising so 
that we can all achieve a successful count.
    In closing, I want to thank our local Census Bureau for 
their cooperation and outreach to us and to pledge our support 
to them and to you to be sure that Philadelphia is a model of 
how a big city can get the count right. Thank you.
    Senator Carper. Dr. Barnett, thank you so much. A wonderful 
statement as well.
    Let me ask a couple of questions, and then I will kick it 
over to Congressman Castle. But this is one for each of you.
    When you think of the things that we need to be doing with 
the Federal Government, we need to be doing within the Census 
Bureau, to enable you to do a better job to ensure that we 
fully count the people, whether it is Philadelphia, Wilmington, 
or what are one or two of the things that you believe the 
Census Bureau needs to do more of, less of, so that we can 
empower you?
    Mayor Baker. Well, actually, over the last Census, it 
really came down to people being able to go out and directly 
contact people. It worked out very well because you had so many 
partners working together with the city and with the Census 
Bureau, and I think that is critical. And the media, just a 
heavy concentration of information, and I think that made the 
difference as to what we did get.
    I think ours was in the 60 percentile, 63 percent, compared 
to the State, which was 70. We were about 7 percent off from 
the State. But that would not have happened without all the 
energy and the resources available to go out and get people and 
to contact them.
    Senator Carper. And let me just revise that question a 
little bit.
    Dr. Barnett, I am not sure where you were working 10 years 
ago, or even 20 years ago, but if you will recall the cities 
and towns that you were working in during the 1990 Census, 
maybe the 2000 Census, lessons learned, things that are 
particularly helpful, maybe you do not see happening this time. 
It may still be early, but things that were really helpful in 
those jurisdictions to count as best we could every person.
    Anything come to mind?
    Ms. Barnett. Well, probably 20 years ago, I would like to 
say that I was not working in another city, but I was, and had 
been for quite a while. And most of my career to that point had 
been in Sunbelt cities, Dallas, Houston, Austin, and also in 
California. And I think the major issue in those cities had to 
do with being sure that there was an accurate reflection of the 
growth. And so, since those were areas where populations were 
booming, there was a real interest in making sure that all the 
new population was counted, from the immigration, from other 
cities in the country, as well as other parts of the world.
    But the issues are the same in terms of the concerns about 
who is counted and who is not. It may vary from one 
jurisdiction to another in terms of what the makeup is, but the 
cities in this country now are quite diverse. So you can expect 
the linguistic problem to be there. You can expect the poverty 
problem to be there. You can expect the cultural issues about 
concerns of returning forms to be there.
    So I think there is, actually from my experience, more 
continuity and concern than there is in differences and 
concern, although they may be for different purposes. We do not 
want to look like we have lost or gained in population more 
than we have, but it is important that we get an accurate 
count. So those are the things.
    Just to comment also on the first question that you asked 
about what I think would be useful to do, the preparations so 
far have been, I think, the kinds that we would expect that are 
appropriate. It would be useful to have some of the money to do 
some of the communications earlier rather than later. But I 
also think that there is a significant new amount of data that 
is going to be developed very quickly through the Recovery Act. 
Cities will be reporting on this money, where it goes, what 
jobs are created. And that set of data can also be helpful in 
double-checking us in terms of other data that we have to count 
population.
    People who are doing weatherization, for example, will be 
going to many of these houses before the Census Bureau needs to 
go. And so, making sure that the information that is available 
and is being developed is used, I think will be something that 
you can help us with at the Federal level. And the State and 
the local level need to do the same thing.
    Senator Carper. All right. Thank you. I have some more 
questions, but Congressman Castle, please join in.
    Mr. Castle. Let me ask you this question.
    I appreciate, Dr. Barnett, your listing various things we 
could do on a local level, but one thing that struck me, as, 
actually, Mayor Baker was talking, that we saw in Delaware last 
month I think, was something that our U.S. Marshal, Dave 
Thomas, organized, working with ministers and going to them, 
and then organizing a session whereby they were able to have a 
lot of people who had committed crimes, perhaps owed fines, or 
had not reported on probation, whatever, relatively minor 
things, come in and be resolved on the spot.
    I was stunned at the number who came in. In fact, people 
with more serious issues came in, could probably expose 
themselves to prison or whatever it may be. But the ministers 
got behind this. They had all the necessary personnel there to 
resolve issues right on the spot. And I thought it was highly 
effective. And it just occurred to me--and I agree with 
everything you are saying about all we should do, but I am 
trying to think sort of outside the box a little bit about what 
we can do locally in our major cities and towns, especially on 
the East Coast.
    Is something like that even practical--and maybe I should 
be asking this of the Census folks--or is this going beyond the 
norm? It seems to me that if you could organize sessions with 
the Census people, if you got the ministers and community 
activists involved, suggesting that there are not repercussions 
to all this, we just want to make sure everybody is counted; 
you had people there who could speak whatever the languages 
are, which are essential to count people in particular 
circumstances, and outreach, in our case, the Latin American 
community center, whatever--and try to get people to come 
forward that way who might otherwise be shy about coming 
forward.
    I mean, maybe they are not parallel programs and maybe that 
would not work. But is that another way of trying to bring 
people out who might otherwise be hesitant about coming forward 
and being counted when they get something in the mail?
    Ms. Barnett. Yes. We were very successful with that 
initiative in terms of trying to clear up some of the backlog 
in our criminal justice system. Our faith-based community is 
certainly one of the groups that we would use for outreach 
because they are actively involved.
    I think one of the points that the mayor made is important, 
too, which is to look beyond traditional media outreach, so not 
only the person-to-person that you would get through the faith-
based community, but not forgetting that radio and face-to-face 
communication through community activities that people are 
already involved in really help the trust level in this area.
    So I think, yes. I think we should be innovative in a way 
that we try to get the information out as well as getting the 
information back. A lot of it will depend on our hiring 
policies for the enumerators. We want the people that we hire 
to be able to be a credible representative in their community. 
So diversity in the hiring is also a critical component in what 
we are going to do for outreach.
    Mayor Baker. I concur with most of that. I think the other 
thing that should be considered is that as long as you got this 
non-fear of what will happen if I do this, if I fill it out or 
send it back or whatever, if that could be diminished amongst a 
lot of people--and it is not just people who speak different 
languages that fear this. It is people who have been born in 
the United States or whatever. They think it is going to be 
used against them.
    If we could diminish the fear issues and use all these 
innovations, I think it would, obviously, get us more people 
who would respond to it. But the non-fear that we are not going 
to arrest you if you come in and get your stuff cleared up made 
hundreds of people--I mean, it was around the block and 
everything, people from all over. We had 100,000 KPS's out on 
people. So I think that if we could clear up that kind of 
thing, and, of course, meeting the different populations, it 
would make a lot of difference.
    Mr. Castle. The other thing that struck me in your comments 
was the use of landlords. That is a little tricky I suppose, 
but the bottom line is, in both of our cities, you do have a 
lot of landlords who own properties, single-family homes as 
well as big apartment buildings, who could probably be very 
helpful if they are willing to share information in terms of 
knowing who lives there or whatever it may be. I do not know, 
first of all, what the legality of all that is, and, second, 
how cooperative they would be. But that is an interesting 
source for trying to determine who could respond or who does 
not respond. I do not know how that could be put together.
    Mayor Baker. Well, I think if they would work with their 
tenants as opposed to their giving a list of these who are all 
the people that I rent to--and provide information back and 
forth, and make it as non-threatening as could be, it could 
work, as opposed to having them as the teller of the 
information.
    Mr. Castle. Thank you very much. That is very helpful.
    Senator Carper. I am going to ask you a couple of questions 
that you have spoken to either directly or indirectly. But I 
want to go ahead and repeat them. I will ask you to just 
respond to them very briefly, please.
    In my opening statement, I said that both Delaware and 
Pennsylvania are among the places for which there is a 
significant undercount. I think 2000 Census shorted the 
Pennsylvania population by about 100,000 people, and of those, 
almost 20,000 lived right here in Philadelphia. There are about 
12,000 folks in Delaware who were missed.
    Based on your knowledge, what impact did the undercount 
have on your respective cities?
    This is difficult, Ms. Barnett. I am not sure where you 
were 10 years ago, but you could use that as an example if you 
would like. And, Mayor, I think 10 years ago you were the 
president of the city council.
    Mayor Baker. Well, I think we lose a lot of money from the 
Federal Government because of all those programs that require 
population. And I think when you look at a small State and a 
relatively small city like Wilmington, it means a great deal 
because those are things you cannot do. So funds for one person 
or a staff person doing a street, or whatever it might be, is 
significant. So losing those numbers makes a lot of difference 
to us. And we cannot make it up, and we do not want to--like 
you were saying, we do not want to have false figures, but we 
certainly want to be accurate in terms of having the numbers 
and not get cheated out of money that the government keeps and 
not give us.
    Senator Carper. All right. Thank you. Dr. Barnett.
    Ms. Barnett. One of the things that we have talked about is 
the impact of just the overall number. And I think that it does 
mean that we have an inaccurate view of what is going on in 
this city and we also get less money, but there are also some 
effects of the detail of the population that we have not spoken 
to specifically, particularly things like educational level. 
That is used significantly in location decisions for the kind 
of economy that we have now. And so, having that misrepresented 
has kind of a double-whammy effect because people look at what 
kind of workforce is available in the city or the region and 
make location decisions based on that. So it is important not 
only to get the total count right, but it is important to get 
the other information that the Census collects, and to get that 
right as well.
    I mentioned in my testimony the work that we are doing 
trying to track our results in terms of the people who live in 
Philadelphia. And in many of our services, the thing that 
drives our own allocation has to do with the information about 
poverty and other kinds of activities, other kinds of 
information that is available through the Census.
    Senator Carper. All right. Thank you.
    Again, for both of you, I think it has been proven that the 
partnership program was an effective tool in reaching out to 
communities of color. We have talked about that. One of the 
ways in which local governments can help, and in this case are 
helping, is by participating in the local update of a Census 
address program to ensure that all addresses and maps that the 
Census Bureau will use to deliver the questionnaire and conduct 
non-response follow-up are current, and, hopefully, that they 
are accurate.
    Would you just briefly describe your overall experience in 
participating in the address update program and explain why it 
is important for local governments to have input in this 
process, if you would, please?
    Mayor Baker. Well, I think all the things that were said 
before makes a lot of difference. We have our planning 
department, and other departments are working on this right now 
to make sure that we can get as much accuracy as possible. But 
it takes a lot of people. I mean, we cannot just take our 
planning department or our other departments and say all these 
people are totally responsible for something else when they 
have other responsibilities.
    So it does intervene in that. But the important fact is 
that we are cooperating, and it has been such a good 
relationship--I remember the 2000 Census. It was a good 
relationship between the various people from the Census Bureau 
on down. And I think it makes a difference if we are working 
together early on and dealing with each because every community 
is a little different no matter how we want to look at it.
    In Wilmington, we are used to knowing each other from top 
to bottom, so it is a little bit different. But we do know that 
there are a lot of new people, growing populations, that we 
would like to know. The Mexican population in Wilmington is 
growing astronomically. We have people from Jamaica. We have 
people from all the different islands and South America. And we 
have the Korean population, Chinese population. All these 
populations are there in one form or another, and it would be 
good to know. And by working together, I think that is the main 
thing that has helped us.
    Ms. Barnett. Just a quick comment on the mayor's comment 
about it is hard to get the people who do this to be dedicated 
to all the Census work when they have everything else going on. 
And that is one of the things that I think might be something 
that could be taken into account when you are thinking about 
doing this.
    If you look at cities, now, with the economic downturn, 
there is very little money to fund the kind of analysis that 
makes it possible to have these accurate counts. We are 
extremely fortunate in Philadelphia that we have a strong 
foundation of community. And one of our foundations has 
indicated that because of the tremendous economic and social 
impact of the Census information, they are willing to help us 
in terms of doing some of the statistical analysis and 
verification that will help us get an accurate count. And that 
little bit of money goes a long way, and that is certainly 
something that might be something that could be facilitated at 
the Federal level.
    Senator Carper. All right, good.
    A related question. You have already, at least partly, 
answered this question as well. But in addition to 
participating in the local update of Census address programs, 
what other roles do you believe are vital for local government 
in the implementation of the 2010 Census? Again, you have 
spoken to these in part. Just briefly mention them again and 
any others that come to mind, please.
    Mayor Baker. I think we have pretty well hit it; if the 
resource is there and we start early enough, we organize well, 
and we do the multi-informational source, actually people 
touching people, using churches, whatever format is out there 
for us to use. That is what we do best, is to know that 
community and who and what can do the job best. And I think 
that is where the Federal Government then ties into that 
because we do not have the resources. Our downturn--in 3 
months, we went from a bad surplus to a big deficit. It was 
just like falling off the cliff.
    So we do not have all the resources that we used to have 
available to us, so we do have to depend on others to do it. 
But I think that is the best that we can do, is get all that 
kind of work done.
    Senator Carper. Do you want to add anything, Dr. Barnett?
    Ms. Barnett. No, that is fine.
    Senator Carper. Dr. Barnett, in your testimony, and also in 
Mayor Nutter's testimony, you raised the issue of non-
traditional housing patterns, particularly in multi-unit 
buildings, some of which were not historically residences but 
served other purposes. But you talked about how a situation can 
pose unique challenges to the Census Bureau and address 
canvassing, and also in non-response follow-up activities.
    For many of these residences, mailed questionnaires, 
actually, just may never reach the intended recipient because 
unit numbers are confusing or in some cases not even in 
existence. As a result, communities with a high proportion of 
such residences are at an unusually high risk of undercount.
    What specific challenges do you believe the Census Bureau 
will face with respect to housing units of this nature, and 
what adjustments will you recommend that the Census Bureau make 
in order to address these challenges?
    Ms. Barnett. Well, I think the first thing is to be sure 
that the master address file is correct. So the partnership 
that we are working with in terms of identifying these 
structures and the number of units that they represent, and 
making sure that we all know where they are, is important in 
the master address file. And then I suspect that we will have 
to come up with some new ways of making sure people get the 
form and get it returned, and that may be a place where owners 
of the buildings or managers of the buildings may be important 
for certain populations, as well as community groups, community 
development corporations and other community organizations that 
know about and have facilitated these kinds of conversions, 
could be very helpful to us in terms of credibility of what we 
are doing and why it is important to turn the form back in.
    Senator Carper. All right, good. Congressman Castle, any 
further questions?
    Mr. Castle. No. Thank you.
    Senator Carper. All right.
    We want to thank you both very much, and certainly to Mayor 
Nutter as well, for taking time in your schedules to be here 
with us today. As it turns out, both the City of Wilmington and 
the City of Philadelphia, as well as our respective States and 
other States and cities, have a whole lot at stake here. And it 
is important that we get this right to the best of our ability.
    To the extent that we get more people to respond initially 
to the mailings, that reduces our cost and improves the 
likelihood for a better outcome. But in a situation where we 
have not just funding decisions for State and Federal 
Government that flows to cities and States, that grow out of 
our Census, but also the election of members of Congress, 
county government, city government, there is a whole lot at 
stake. And, clearly, you have that in mind, and we appreciate 
very much the attitude with which you are approaching this part 
of your duties, given everything else that you have on your 
plates.
    So thank you very much. With that, we will bring on our 
second panel.
    We are delighted that you have joined us. I appreciate, 
especially--Mr. Mesenbourg, I appreciate your being here and 
listening to the first panel. And I hope that was of some value 
to you and to the folks that you lead.
    It is Mesenbourg, right? Is that correct?
    Mr. Mesenbourg. Yes.
    Senator Carper. Has your name ever been mispronounced?
    Mr. Mesenbourg. Maybe once or twice.
    Senator Carper. But you serve today as the Acting Director 
of the Census Bureau, and you have been serving in that 
capacity for I believe about 4 months; is that correct? 
Currently overseeing the planning and implementation and the 
operations for the 2010 Census. You previously served as 
Associate Director for Economic Programs at the Census Bureau, 
where you managed the Census Bureau's economic Census, the 
Census of government, and over 100 monthly, quarterly, and 
annual surveys. Mr. Mesenbourg received his masters in 
economics from Penn State, a local product, and did his 
undergraduate work at Boston University.
    Thank you for being here today and for your service.
    Norman Bristol, do you pronounce your name Colon?
    Mr. Colon. That is right, Colon.
    Senator Carper. Bienvenido.
    Mr. Colon. Gracias.
    Senator Carper. Welcome.
    Appointed by Pennsylvania Governor Ed Rendell as Executive 
Director to the Governor's Advisory Commission on Latino 
Affairs; Commonwealth's Advocate Agency for its Latino 
residents. In this role, Mr. Colon makes recommendations to the 
governor, to State agencies, to legislature, local and county 
governments on issues of importance to the Latino community in 
Pennsylvania. And he also serves as the governor's liaison for 
the Latino community, ensuring that State government is 
accessible, accountable, and responsive to the needs of 
Latinos.
    Welcome.
    Pat Coulter was appointed President and the Chief Executive 
Officer of the Urban League of Philadelphia in 2002. She is the 
first woman, I understand, to lead the Philadelphia 
organization in its 90-year history. Ms. Coulter also serves on 
various nonprofit boards and associations. She holds a Bachelor 
of Science degree in music from Knoxville College and a masters 
in education from the University of Louisville, the home of the 
Cardinals, as I recall.
    Finally, we have Wanda Lopez. Ms. Lopez is Chair of 
Governor Jack Markell's Consortium on Hispanic Affairs, which 
is focused on increasing access to education and improving the 
quality of life for our State's Hispanic population. She is 
also the Executive Director of the Governor's Advisory Council 
on Hispanic Affairs.
    Delighted to see you again. Thank you so much for coming up 
here to Philadelphia and spending this time with all of us.
    We are going to call on Mr. Mesenbourg first. If you would 
lead us off, and then we will just go right down the table, Mr. 
Colon, Ms. Coulter, and Ms. Lopez. Thank you.

STATEMENT OF THOMAS MESENBOURG,\1\ ACTING DIRECTOR, U.S. CENSUS 
              BUREAU, U.S. DEPARTMENT OF COMMERCE

    Mr. Mesenbourg. Thank you, Senator Carper and Congressman 
Castle. It is an honor to participate in this hearing.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Mesenbourg appears in the 
Appendix on page 52.
---------------------------------------------------------------------------
    Two hundred and twenty-two years ago, the Founding Fathers 
recognized that a complete and accurate count of the population 
was a cornerstone of democracy. And the 2010 Census marks the 
twenty-third time the Nation has undertaken this great national 
and civic responsibility.
    Mr. Chairman, your invitation letter cited two concerns 
from the 2000 Census, an undercount in Philadelphia and a low 
mail-back response rate in Wilmington, Delaware. Counting 
everyone once and only once, reducing the differential 
undercount, and increasing the mail-back response rate are our 
top priorities. Let me quickly describe the keys to achieving 
these objectives.
    First, as was mentioned earlier, the Census really is an 
enumeration of addresses, so our first job is to ensure that 
our address list is complete, comprehensive and up to date. The 
first critical production operation of the 2010 Census, address 
canvassing is now underway. At peak, we had 140,000 employees 
walking the 9 million blocks in the United States and 
validating and updating 145 million addresses. I am pleased to 
announce that the hand-held computers have performed 
exceptionally well and operations are running well ahead of 
schedule and are almost complete in Philadelphia and in 
Delaware.
    This fall, for the first time, we will conduct the address 
canvassing of some 270,000 group quarters. Those include 
nursing homes, dormitories, etc. We also are working with local 
government and advocacy groups, in cities such as Philadelphia 
and Wilmington, to identify an update our roster of shelters, 
soup kitchens, and mobile food stations as we prepare for our 
service-based enumeration program next March.
    Other innovations that will improve the 2010 count include 
the first short-form only Census, 10 questions, 10 minutes; the 
first use of English-Spanish bilingual report forms, and we 
will mail those to 13 million Hispanic households. 
Questionnaires will also be available upon request in Chinese, 
Korean, Vietnamese, and Russian.
    This will also be the first time we do a replacement 
mailing of 2010 Census forms to traditionally low mail-back 
response rates, and we have added two new coverage questions to 
the 2010 form that we hope will help include incorrect 
omissions or duplicates.
    We are in the process of establishing 30,000 questionnaire 
assistance centers and 40,000 be-counted sites. And our 
language guides will be available at the questionnaire 
assistance centers in 59 different languages.
    Well, getting households to respond requires that they 
understand that filing their Census form is easy, it is 
important, and it is safe. And these messages are core to our 
much improved and expanded communication campaign. This 
campaign is multifaceted, employing and integrating paid 
advertising, public relations, a very robust partnership 
program, as well as an expanded Census in Schools program. Our 
goal is to deliver the right message, through the right media, 
in the appropriate language, at the right time.
    The Recovery Act provided an additional $100 million for 
the communications contract and an additional $120 million for 
partnership programs. These funds will be directed primarily to 
reaching and motivating hard-to-count segments of the 
population. While paid advertising can educate, inform, and 
motivate households and individuals, the Census 2000 experience 
demonstrated that Census Bureau partners serve as a powerful 
and trusted advocate that can effectively reach segments of the 
population not persuaded by advertising. Our partners, who are 
trusted voices in their community, can work with local 
organizations, and they have credibility in terms of the safety 
and the importance of the Census.
    Elected officials in the Philadelphia region already have 
committed to establish 95 complete-count committees, made up of 
leaders from government, business, social organizations, faith-
based organizations, and local community groups. And I believe 
my esteemed fellow witnesses earlier testified or are 
considering establishing complete-count committees, and we 
thank them for that.
    In Pennsylvania, partnership staff have already obtained 
commitments from over 350 community organizations and leaders, 
with 89 in Philadelphia. In Delaware, 70 partnerships, 
including 35 in Wilmington, have either been entered into or 
are pending. Well, thanks to the Recovery Act, we will be 
tripling our partnership staff in the Philadelphia region from 
54 to 145 staff. Those people will be hired by the end of July. 
Additional partnership staff hired locally will permit us to 
reach out to many more local organizations. These trusted 
voices can allay fears and convince members of the local 
community to complete and return their 2010 Census form.
    Mr. Chairman, Congressman Castle, we are well positioned to 
achieve our constitutional mandate of counting everyone in the 
U.S. and its territories. Our operations are not designed to 
count most of us; they are designed to count all of us. This is 
a daunting task, but we are prepared to fulfill it. So thank 
you.
    Senator Carper. Mr. Mesenbourg, thank you so much, and 
thanks again for your leadership. We are having a hearing I 
think this coming Friday with the gentleman who has been 
nominated to be the new Census Bureau director. And we will 
hopefully have someone there to give you some backup and some 
additional leadership. But thank you for stepping up in the 
interim.
    Mr. Colon, please proceed. I am going to ask you to move 
your name tag in so it faces the audience just a little more 
directly. I want everybody to know who you are.

   STATEMENT OF NORMAN BRISTOL COLON,\1\ EXECUTIVE DIRECTOR, 
  GOVERNOR'S ADVISORY COMMISSION ON LATINO AFFAIRS, OFFICE OF 
                   GOVERNOR EDWARD G. RENDELL

    Mr. Colon. Chairman Thomas R. Carper, Congressman Michael 
Castle, I will be remiss if I do not mention that you are the 
sole member of the Subcommittee on Federal Financial 
Management, Government Information, Federal Services, and 
International Security that is here with us today in 
Pennsylvania. That shows a lot of commitment.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Colon appears in the Appendix on 
page 58.
---------------------------------------------------------------------------
    Ladies and gentlemen, good afternoon and welcome to 
Pennsylvania. I would like to commend the presence of Fernando 
Armstrong, who is the regional director of the U.S. Census 
Bureau office here in Philadelphia, and, of course, a partner 
that has been working with us for more than a year, Thomas 
Mesenbourg and the staff of the U.S. Census Bureau.
    Mr. Chairman, I am Norman Bristol Colon, Executive Director 
of the Governor's Advisory Commission on Latino Affairs for the 
Commonwealth of Pennsylvania. I am grateful to you for inviting 
me to this so important and timely hearing. It is symbolic that 
this hearing is taking place in this landmark city and in this 
landmark building for such an important discussion, and the 
relevance of the U.S. Census work for generations of Latinos 
and urban America.
    According to the Pew Hispanic Center, the population of 
Latinos in the United States changed from 35 million to about 
45 million in 2007, representing 15 percent of the U.S. 
population. Sixty percent of Latinos are native born, and this 
population growth has been noted and has created challenges and 
enormous opportunities.
    Today, we have more Puerto Ricans living in the U.S. 
mainland than on the commonwealth island of Puerto Rico. As 
national chair of the U.S. Council of Latino Affairs, 
representatives from various U.S. State Latino councils and 
commissions, we support and partner with the U.S. Census 
Bureau, the U.S. Hispanic Leadership Institute and other local, 
State and national organizations in pushing for an accurate and 
successful decennial 2010 Census through the national 
aggressive awareness campaign Hazte Contar Census 2010: Makes 
Dollars and Cents.
    The result of the Census plays a key role in determining 
funding for the placement of schools, roads, hospitals, and 
child care, among other things. It also contributes to 
supporting the need for social services programs based on 
current population at the local and State level. As 
representatives of the Latino Affairs offices across the 
country, we are committed to working together with the U.S. 
Census Bureau to ensure a full count of our Latino communities 
in 2010, and thus effectively meeting the needs of our Latino 
constituents.
    Ensuring that every Latino is accurately counted in the 
2010 Census is an integral part of a greater agenda for social 
justice, political representation and community empowerment. An 
undercount will have an economic and educational disadvantage 
to our community, a community that today is the largest 
minority ethnic group in the Nation, yet, Mr. Chairman, it also 
has the highest high school dropout rates and unemployment 
rates in America.
    I quote a statement by Angelo Falcon from the National 
Latino Census Network. Mr. Falcon recently said that ``the 
challenges facing an accurate Latino count by 2010 Census, in 
light of the negative environment created by anti-immigrant and 
anti-Latino sentiments in this country, will be enormous.'' 
Other challenges that will have a great impact that was noted 
before is that this community is a very mobile community due to 
many factors: Lack of trust in government; hiring practices by 
the U.S. Census; the socioeconomic and educational levels, to 
name a few.
    Mr. Chairman, I urge you to request the U.S. Census Bureau 
develop a plan that will reach the undocumented and the 
documented the same way. Through your sincere dedication, Mr. 
Chairman, we trust you will make sure that every Latino in 
Pennsylvania and around the Nation is accurately counted in the 
2010 Census by urging Congress to use its congressional power 
to make sure the Federal Government adheres to the 
constitutional mandate to count every person in the United 
States of America; identify strategies for Census 2010 
bilingual marketing; and seek for assurance that information 
collected in the 2010 Census will be completely private and 
confidential and not be reported to the U.S. Immigration and 
Customs Enforcement.
    If current trends continue, the U.S. population will grow 
to about 430 million in 2050. Eighty-two percent of this 
increase will be due to immigrants arriving from 2005 to 2050 
and their U.S. born descendants. The Latino population is the 
Nation's largest minority group and is expected to triple in 
size and account for most of the population growth from 2005 to 
2050. Latinos will make up 29 percent of America's population 
in 2050. And if we have an undercount, Mr. Chairman, today, in 
the 2010 Census, it will diminish the potential of this 
community and it will have a great impact on future generations 
of Latinos in this country.
    In Pennsylvania, the Latino population has grown steadily 
since 1990, 31 times faster than the rest of the population, 
and has accounted for more than 50 percent of the population 
growth in the past 8 years. Data collected in the U.S. Census 
affects how billions of dollars in Federal and State funding is 
given to communities that are suffering, especially the Latino 
community that I am honored to represent in the Commonwealth of 
Pennsylvania.
    In the last Census, Mr. Chairman, more than 1 million 
Latinos were not counted in the United States. Over the past 
decade, Latinos have become the fastest growing demographic in 
the Commonwealth of Pennsylvania. With more than 560,000 Latino 
residents and the trends pointing to a continuation of that 
growth, the 2010 Census would publicly demonstrate the 
prevalence of Latinos across the country. Additionally, to 
better assess what Latinos need in the next Census, it is 
important to examine what provisions currently exist in the 
U.S. Census Bureau.
    History shows that an incomplete and inaccurate Census 
denies Latinos a right granted by the Constitution of the 
United States, a right to fair representation at all levels of 
government. An error in population data deprives Latinos 
further resources needed to assist communities in forming 
public policy.
    Many times we have friends in the U.S. Congress like 
yourselves, like you, Senator, and the congressman, but if we 
do not draft public policy, whether you are in office or not, 
our potential as a community will be diminished if we do not 
have the good friends that we have in both of you.
    As the decennial measurement draws closer, some major 
issues face Latinos, and this includes ensuring that Latinos 
are fairly and properly included in the counting--to make the 
Census forms accessible so that they may be completed by as 
many residents as possible; the influx of illegal immigration 
in certain areas; finding a way to encourage Latinos to 
register with the Census, independent of the issues regarding 
immigration and anti-Latino sentiment that some areas like 
Hazelton, Pennsylvania are undergoing today.
    While the Latino population has been long concentrated in 
the south and west, there is a strong possibility that as work 
becomes available, the northeastern States could undergo an 
influx of Latino migration between now and 2010 and 2020.
    Besides having an accurate count of Latinos in the 
Commonwealth and country, there are several key benefits to a 
Latino-inclusive Census. Redistricting will include districts 
that better represent the prevalence of the Latino community. 
And for us in Pennsylvania, this is so important. We have more 
than 560,000 Latinos in the Commonwealth today. Yet, we only 
have one Latino in the Pennsylvania legislature. These 
districts are more likely to yield public officials that 
reflect the Latino background and will better address the 
issues facing the community.
    A proper count of Latinos could heavily improve the 
community's political stature and create a better environment 
in which Latinos can lobby for legislation that pertain to 
their causes. The rise in population, prevalence, and 
representation will lead to more economic and political 
development, which can help produce better legislation.
    Mr. Chairman, let me tell you, when we improve the living, 
social, economic, and educational condition of Latinos, we are 
improving the living, educational, and social and economic 
conditions of all Americans. Twenty-five percent of the 
Nation's early childhood education population today is Latino 
in the United States. So if we look at that 25 percent, we can 
say that 25 percent of the Nation's future as of today is going 
to be Latino. If we miss out counting this population, a 
generation will lose out to enjoy the benefit of a fair and 
accurate count.
    I urge you to prevent the Census from becoming a political 
tool that will impact greatly the Nation's Latino population. 
The Census can and will bring Latinos out of the shadows.
    Mr. Chairman, let me conclude by saying that today, Latinos 
know they can make a difference in the direction of our 
country. In cities like Lancaster, Reading, Allentown, 
Bethlehem, York, Harrisburg, Lebanon, Latino students are soon 
to be, or already are, the majority of the student population. 
An accurate count in these areas of the State will help us 
provide better educational opportunities for these kids and a 
pathway to their hopes, dreams, and aspirations. I strongly 
believe that an accurate count will level the playing field and 
will bring our community much closer to the American dream.
    Mr. Chairman, thank you for you time.
    Senator Carper. Mr. Colon, thank you for your testimony. 
Thank you very much.
    Ms. Coulter, you are recognized. And your entire statement 
will be made part of the record. If you wish to summarize it, 
you may do so, Ms. Coulter.

 STATEMENT OF PATRICIA A. COULTER,\1\ PRESIDENT AND CEO, URBAN 
                     LEAGUE OF PHILADELPHIA

    Ms. Coulter. Good afternoon. Senator Carper and Congressman 
Castle, thank you very much for having me here today. I am 
pleased to be invited to testify today on Making the Census 
Count in Urban America. For the record, my name is Patricia A. 
Coulter, and I am President and CEO of the Urban League in 
Philadelphia.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Coulter appears in the Appendix 
on page 66.
---------------------------------------------------------------------------
    The National Urban League, with its 100 affiliates 
nationwide, and the U.S. Census Bureau have a history that 
dates back to 1970 in the Census project of that year. The 
mission of the Urban League is to empower African Americans to 
secure economic self-reliance, parity, power, and civil rights. 
We carry out that mission by closing equality gaps in five key 
areas: Economics, education, health, civic engagement, and 
social justice.
    According to the Urban League of Philadelphia's recent 
State of Black Philadelphia report, African Americans comprise 
44 percent of the population in Philadelphia. This report 
statistically measures these five disparities between blacks 
and whites in Philadelphia.
    Philadelphia Inquirer journalist, Dick Polman, reported 
back in February 2009 that the Census is a flashpoint. Numbers 
are power. The population count determines who will most 
benefit from the billions in Federal aid and where it will go. 
It determines which States will gain congressional seats and 
which will lose seats. ``Both political parties have a huge 
stake in the Census,'' says Mr. Polman.
    Census data directly affects African Americans in virtually 
all decisions made in education, employment, veterans' 
services, public health care, transportation, and housing. 
Using the Census data to develop, evaluate and implement 
programs means that the data is used to determine how to divvy 
up more than $300 billion each year.
    These facts underscore the importance of African Americans 
being counted. In fact, Philadelphia has a unique history with 
regard to counting African Americans for the Census. In 1837, 
the Pennsylvania Abolition Society (PAS) appointed a committee 
to conduct a Census of the entire black population in 
Philadelphia and the surrounding suburbs. The Constitution that 
existed was ambiguous with respect to the right of blacks to 
vote. To remove the ambiguity, Ben Martin, a delegate to the 
Reform Convention to amend the State constitution, proposed 
that voting rights be limited specifically to whites.
    The PAS actively lobbied to prevent this change to the 
Constitution, and the African American Census was an important 
component of these efforts. The Census was intended to 
demonstrate that blacks were valuable contributors to their 
communities, however, despite the efforts of the PAS and other 
activists, the Constitution, which was ratified in October 
1838, excluded blacks from the franchise. Well, today, as it 
was, the Census data is used to prevent African Americans from 
being disenfranchised.
    African Americans have been systematically and 
disproportionately undercounted by the Census. Urban centers 
and high poverty areas, immigrant and minority communities, are 
most susceptible to miscounts. The 1990 Census included a net 
undercount of 4 million. Most of those left out were urban, 
non-white, and generally poorer than the mean of those counted. 
The consequences of the undercount could be serious in many 
urban areas. According to the former Philadelphia deputy city 
planning commissioner, David Baldinger, the 1990 undercount 
cost the city $10 to $15 million annually.
    Federal funding for employment and training is one of the 
primary policy responses directed at racial inequality in 
employment. The undercount has a major impact on the 
distribution of Federal funds for employment and training. The 
formula for distributing employment and training funds could be 
significantly distorted by the undercount in urban areas that 
could reduce the funds available for job training in cities 
like Philadelphia.
    Minorities tend to be undercounted because some are 
mistrustful of and avoid sharing information with the 
government. Many people, frankly, just do not feel a part of 
the American system; therefore, we need community organizations 
to be a bridge, to be a connector to these undercounted 
communities.
    According to Robert Hill, in the initial planning for the 
2010 Census, he says that the Stimulus Bill stipulates that the 
Census Bureau can spend up to $250 million for its partnership 
program. I heard a person here say $100 million, but the 
Stimulus Bill can spend up to $250 million in partnership 
programs and outreach efforts to minority communities and hard-
to-reach populations. With adequate resources, community-based 
partnerships can reach the undercounted through their current 
services and programs, as well as direct outreach to 
neighborhoods and constituents.
    The Census Bureau will hire 1.4 million temporary workers 
to help collect the data and follow up with households that do 
not return their forms. Community-based organizations could be 
partners for the Census Bureau to ensure an ethically and 
racially-diverse workforce, from the staff in the district 
offices to the enumerators in the neighborhoods and barrios.
    In conclusion, with this history and with these numbers as 
a backdrop, making the Census count in urban America is 
critically important for African Americans and other minority 
groups. I thank you for this opportunity to share my views on 
this important issue.
    Senator Carper. You are welcome, and we thank you for 
sharing your views with us today.
    Now, direct from Delaware, the first State, the State that 
started our Nation, ratified that constitution and was first 
drafted here in the City of Brotherly Love, Wanda Lopez.

STATEMENT OF WANDA M. LOPEZ,\1\ EXECUTIVE DIRECTOR, GOVERNOR'S 
              ADVISORY COUNCIL ON HISPANIC AFFAIRS

    Ms. Lopez. It is great to be with so many Delaware 
representatives here today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Lopez appears in the Appendix on 
page 69.
---------------------------------------------------------------------------
    Good afternoon, Mr. Chairman, and Congressman Castle. I 
wanted to also acknowledge Mayor Baker and Mayor Nutter for 
hosting us in this city today, and all the other participants 
here today, especially some of the familiar Census 
representatives that are becoming familiar faces. I appreciate 
the opportunity to testify on behalf of the Delaware Governor's 
Advisory Council on Hispanic Affairs (GACHA) and share 
recommendations from council and community members.
    I have a quote written by one of our GACHA members, 
Margaret Reyes, ``We as a Nation has always been and will 
always remain greater than the sum of our parts. But we as a 
people must know the amount and the sum of these parts, who and 
where we are. In this way, we move forward together as a united 
Nation of many. In this way, the founders wisely decided the 
decennial enumeration be done.'' It is in the spirit and with 
this in mind that I am here before you today.
    Good afternoon. My name is Wanda Lopez, and I have served 
as the Executive Director of GACHA since 2003. The Council has 
existed for 31 years and our members make recommendations to 
the State as they relate to our five active committees: 
Education, health, social justice, economic development, and 
historical and cultural affairs.
    For the last 3 years, I have had the opportunity to meet 
with other Hispanic Latino Affairs directors during the U.S. 
Hispanic Leadership Institute Annual Conference at the 
invitation of Dr. Juan Andrade, the USHLI president. We were 
provided with this venue where we were able to share best 
practices around policy and organizational development. And 
this year we formed the U.S. Council on Latino Affairs, and we 
held an election, and Norman Bristol Colon is our chairperson, 
actually.
    Our latest gathering was in April in Washington. We had an 
education summit and 23 Hispanic State affairs directors 
attended, all making a commitment to work on the Census as our 
national project under the Hazte Contar campaign that Mr. Colon 
spoke of.
    GACHA began its partnership with the Census Bureau last 
year, and we formally announced that partnership during our 
Hispanic Heritage Month proclamation on September 15, 2008. And 
former Governor Minner was in attendance, along with Fernando 
Armstrong, regional Census director, who is here with us today. 
The commitment was to raise awareness on the importance of 
being counted, and GACHA became a community complete-count 
committee member, launching a local campaign that we call 
Cuenta Conmigo, Count on Me.
    The goal is that through our established network of 
contacts, we refer to the Census partnership specialists, 
various community, and faith-based leaders throughout the 
State. These connections have led to Census staff meetings with 
local emergency service providers, ensuring physical locales 
are properly verified and pockets of communities are properly 
located.
    Identifying these areas is the critical first step. The 
next critical step is to hire the right people to enumerate 
their own communities. We feel confident that if partnerships 
are formed with these organizations State-wide, the community 
will receive the message from trusted messengers and 
participate in the Census.
    By creating the Census storefront sites within existing 
organizations in each county, and placing Census personnel in 
service provider locales, community and faith-based sites, this 
could be very effective in capturing the historically 
undercounted population of Hispanics. Relying on volunteers to 
accomplish this task would be a mistake, as too many nonprofits 
are understaffed and underfunded.
    In order to garner the trust of these sensitive 
populations, it is imperative that test scores alone not be the 
sole criteria for the selection of the Census workforce in 
these work areas. We highly recommend that additional criteria, 
like language ability, cultural sensitivity, knowledge of 
community, and experience from living and working within the 
hard-to-count areas, be the final determining factor for hires.
    The Hispanic population must receive messages from trusted 
sources, like church leaders, service providers, the local 
Spanish media, in order to fully grasp the importance of the 
Census. We are all here today to fully understand that the 
Census is the sole basis for the distribution of political 
power and the distribution of Federal funds. The general 
population as a whole, and the Hispanic population 
specifically, needs to understand how that impacts their daily 
lives, why their participation is critical for their future. 
Those messages must come from trusted and familiar sources.
    We all know that agribusiness relies heavily on migrant 
workers and the undocumented workforce population that live in 
rural areas. These are traditionally hard-to-count areas, and, 
therefore, historically undercounted communities. Thus, this 
presence within the corporations where they work and 
partnerships with service providers and their community will be 
instrumental to count these groups. Stepped-up immigration 
raids and hate crimes focusing on immigrant workers has driven 
this community further underground, making this tumultuous task 
more challenging.
    The Census Bureau now has the unenviable task of having 
less than 1 year to undo the erosion of trust resulting from 
immigration policies of the previous Administration, focused on 
workers not employers. This community has difficulty in 
understanding the difference between the mission of the U.S. 
Census Bureau and ICE, U.S. Immigration and Customs 
Enforcement, two very separate branches of government. It is 
for this reason that the only solution to a successful count is 
to work with people they trust within their communities.
    We also hope to see cooperation from other agencies to 
support the Census Bureau in dealing with a sensitive 
population. The absolute key is working with trusted faces in 
the community where they learn, work, play, and pray. Working 
with the Department of Education to incorporate the Census into 
the curriculum, not only K through 12, but adult ESL, which has 
already been accomplished in Delaware; working with employers 
to hold Census awareness sessions on site; working with service 
providers to assist with questionnaires; working with soccer 
league coordinators to carry the message on the field; and 
working with the media and the faith-based leaders to 
incorporate the message within their programs, will ultimately 
ensure that these folks are captured in their community during 
the course of their daily lives.
    Although Delaware is a small State, we are capable of 
producing great results, as evidenced recently on the political 
scene and here today. Delaware is capable of being a model 
State for the Census since we are manageable in regards to size 
and we are open to new ideas. GACHA feels confident that Census 
2010 can be more successful in capturing the Hispanic 
undercounted population than in prior years if the community 
partnerships are formed State-wide, bilingual/bicultural 
personnel hired for key positions, and Spanish-speaking Census 
personnel placed in critical areas. We have seen that work. It 
has already begun in Delaware.
    Mr. Chairman, thank you for allowing me to address the 
Subcommittee and share Delaware's GACHA council members' and 
community leaders' recommendations for a complete count in 
Census 2010.
    Senator Carper. Ms. Lopez, thank you. Nicely done.
    Congressman Castle is going to lead off this round of 
questions. We will maybe do one round for this panel, and then 
we will call it a day. Congressman Castle.
    Mr. Castle. Thank you, Senator.
    Mr. Mesenbourg, let me start with you. One of the concerns 
that I have expressed and I have heard often is that people are 
shy of the Census counting because they are concerned about 
what else it may involve.
    Can you tell me what relationship, if any, the Census 
Bureau has or could have with immigration officials or law 
enforcement officials in this country?
    Mr. Mesenbourg. Any information provided to the Census 
Bureau will be held confidential. The only individuals that 
will ever see the information provided by a respondent will be 
Census Bureau employees. So data will not be shared with INS, 
it will not be shared with IRS, it will not be shared with 
anyone except Census Bureau employees.
    Mr. Castle. I do not mean to counsel you, but I think that 
is a very important message to get out. I think that relieves a 
lot of the problems we are all concerned about. If people truly 
understood and believed that, I think we would see the counts 
go up among certain people or population who are concerned 
about those kinds of issues.
    Mr. Mesenbourg. This is going to be a key message in our 
paid advertising campaign. We tested the preliminary ads and 78 
focus groups, with 1,400 people, and most of the groups, 
especially the Hispanic group, has advised us even to 
strengthen the message on confidentiality. We intend to do 
that.
    Mr. Castle. My second question, let me preface it with a 
story. I guess it was last Tuesday night or so, down in the 
Capitol, I was asked--because I was a sponsor of a youth bill--
to do an introduction in a new movie, which is a documentary 
coming out, the Bloods and the Crips, about the gangs in Los 
Angeles. And the producer was there, and Baron Davis, the 
basketball player, was there. And the producer's wife is 
Jessica Alba, who is a movie star. I must admit, I have not 
seen her a lot, but she is a movie star.
    We were walking over from the Capitol, into the Capitol 
Visitors Center, and I just happened to at that point be 
walking sort of alongside of her. There was a railing and 
stairs, and we were on either side of that railing walking 
down. And, I walk around the Capitol all the time. I mean, I am 
one of 435 people; people could care less. But anyway, down at 
the bottom of the stairs there are probably about a hundred 
photographers taking pictures. So we get down to the bottom, 
and I turned to her. I said, ``Jessica, I apologize for causing 
you so much inconvenience with all these pictures.'' I do not 
know if she heard me or not. She sort of laughed and went on.
    The reason I raise that is, it is clear there are 
celebrities out there of which members of Congress--maybe 
senators, but members of the House are not.
    And I just wonder how much help they could be in terms of 
doing public service type announcements, and maybe talk about 
some of the things we have talked about here today, or the fact 
that nobody else is going to learn about this or whatever.
    I mean, Oprah Winfrey, people like that, doing public 
service announcements would be, I would think, a tremendous 
value in all of our communities, finding people who would be 
able to help in the communities.
    Is that something that is being pursued?
    Mr. Mesenbourg. That is, Congressman, something that we are 
pursuing. Actually, we vetted the preliminary advertising with 
our new Secretary of Commerce, Secretary Locke, about 2 weeks 
ago. And one of his advisors was a senior advisor to then 
Senator Obama during the campaign. And he encouraged us to 
really involve some of the celebrities, especially celebrities 
that are viewed as trusted voices within their local community.
    So as part of our communication contract, we have a public 
relations aspect to that, and we have that firm actually 
crafting some of those messages. And some of the advice that we 
have is maybe we need to be a bit more cutting edge on some of 
the advertising to hit some of these traditionally hard-to-
count parts of the population, and we are exploring that.
    Mr. Castle. Let me just ask the other panelists, does that 
make sense to you, if they had public service announcements 
with people of some notoriety in whatever community you are 
trying to deal with in terms of getting people to get involved 
with the Census count?
    Ms. Coulter. I do think it makes sense. The only thing I 
would suggest, though, is that there be a sensitivity to making 
sure that you are reaching all the groups. So, for example, in 
the African American community, African American media, African 
American PR firms. When you talk about celebrities, for 
example, in the African American community, the person that 
comes to my mind--we were just talking about Oprah. But in 
addition to Oprah, there is Tom Joyner, who reaches millions of 
African Americans everyday on the radio, and he is very 
trusted.
    So I think when you think through that strategy, just make 
sure it is very inclusive.
    Mr. Castle. Is that true in the Latino communities as well?
    Ms. Lopez. Yes. I would reiterate that the same would apply 
in the Hispanic community, very popular, soap operas in 
Spanish. Novellas are very popular, so the stars obviously are 
very much sought out.
    But from a local perspective, I think local radio, 
especially in Delaware, is considered an important source. So 
at the same time that the Telemundo and Univision are using 
these wonderful celebrities to carry the message, then they 
have to also hear it from local community leaders and media and 
newspaper and radio, and I think that would be powerful. 
Because the message for our community, the most concern we have 
has to do with a community that is fearing this process and 
needs to understand how these two entities are separate and 
that this data is safe.
    Mr. Castle. Well, let me thank you all. You have been a 
very good panel. It is has been very informational and helpful. 
And, hopefully, working together, we can overcome some of the 
problems that have existed in the past. And let me thank 
Senator Carper for the opportunity of participating today, and 
turn it over to him.
    Senator Carper. Well, I am just delighted that you have 
joined us, Congressman. Just think about it, two-thirds of the 
entire Delaware delegation in Congress is on this stage at this 
moment. But we are honored that each of you are here.
    I am just reminded in terms of putting together and 
crafting a message to encourage folks to step forward to be 
counted, in terms of being able to craft the message to 
encourage those folks who might otherwise duck this opportunity 
to not duck it.
    White Anglo-Saxon Protestant Catholics like the congressman 
and myself, we are not the most effective messengers. We are 
not the best ones to put together the marketing plan. We are 
not the best ones to do the media, but there are a lot of folks 
who are, and you have mentioned some of them who are.
    I think someone earlier mentioned that the President might 
play a valuable role. I would say the First Lady might be a 
terrific asset there as well. I do not know if their children 
might be called upon to play a role, but there are a lot of 
children in homes that are not going to be counted. So this 
could be a whole family participation project. But we need to 
be creative. We need to think outside the box. And my sense is 
that what we are doing here.
    First question that I have is for Mr. Mesenbourg. I want to 
go back to talk about something we had a chance to get into 
before. As you know, in April, the Census Bureau began a 
massive operation to verify and update more than 145 million 
addresses nationwide--the hand-held computers, I think their 
cost is about $800 million for the hand-held. That is what I am 
told. But the address canvassing operation has a projected cost 
estimate of about $370 million. In Delaware, approximately 500 
temporary employees were hired to carry out the operation, I 
believe.
    For the first time, workers are using hand-held computers 
to update the Census Bureau's address database. And, as you 
know, last year, there were major problems with the hand-held, 
which led to a major redesign of the Census late into the 
process.
    Would you just talk for a minute or so about the 
improvements that have been made to the overall functionality 
of the hand-held computers? Since the dress rehearsal, are they 
performing as expected during the address canvassing operation?
    I believe you suggested a few minutes ago that, indeed, 
they are and that you are encouraged. But take another minute 
and just talk about that.
    Mr. Mesenbourg. Certainly, Senator.
    As you know, we faced some significant challenges last year 
that we experienced with the hand-held computers in the dress 
rehearsal that was in both Stockton and Fayetteville, North 
Carolina. Faced with some of those problems, we actually took a 
hard look at our data collection activities for 2010, and we 
decided to focus and use the hand-held computers only for the 
address canvassing operation.
    The original plan was to use those for non-response follow-
up in May 2010. That is when that operation starts. We thought 
that was far too risky an undertaking to do that, so we put all 
of our resources on making sure that the hand-helds would 
perform in the address canvassing operation.
    Senator Carper. Not everybody following this hearing knows 
what we mean by address canvassing.
    Why don't you just take a moment and explain to the 
laypeople what that means?
    Mr. Mesenbourg. The address canvassing operation, we hired 
140,000 Census Bureau employees to walk every block in the 
United States and actually check the address, validate the 
address. And they have a GPS capability on the address 
canvassing that permits us to accurately locate the housing 
unit in the block. And that becomes important, of course, if we 
have to go back and do non-response follow-up and when we are 
going to tabulate the data.
    So the objective of address canvassing is to make sure we 
have every address on the address list. We heard some 
discussion earlier in the day about the local update process. 
Philadelphia provided us with 56,000 addresses, and across the 
Nation, we got 8 million additional addresses from State and 
local governments.
    So when we approached address canvassing this spring, we 
found that the workload had increased. We had the 8 million 
additional addresses that had come from the State and local 
communities. We had tested the hand-helds in a small scale test 
in December in Fayetteville, North Carolina, but there were 
still some concerns on how they would perform. So we introduced 
a series of risk mitigation strategies. And while originally we 
planned to do address canvassing in two waves, we decided to do 
it in five waves to reduce the risk. So we actually ended up 
starting about 10 days early in eight of the local Census 
offices.
    We also then benefited from the downturn in the economy. In 
the dress rehearsal in 2007, our experience was if we hired 
somebody, about 25 percent of them would not show up for the 
training, so we would make an offer. Well, our experience in 
this economy, of course, is much different, and only 12 percent 
did not show up. We also had much higher probability that 
people might decide address canvassing was not their cup of tea 
6 months or a year ago, and now we are getting very few people 
that are willingly giving up their jobs. So they are working 
longer hours and they are not separating. That really explains 
why we are so far ahead of our address canvassing operation.
    But to answer your question, the hand-helds have performed 
very well. And with a very highly-skilled workforce working 
longer hours, we are finishing the operation much earlier than 
we originally planned.
    Senator Carper. Thank you for that.
    Let me just segue, kind of stay on that point. But I am 
told that the address canvassing operation was initially 
expected to last I think through mid July. But in certain areas 
of Philadelphia, and I think even Delaware, I am told that 
Census workers were let go after working only a few weeks. And 
last week, I think the Commerce inspector general issued a 
report, indicating that workers were not following basic 
procedures and taking short cuts.
    Let me just ask, what is the impact of these 
inconsistencies on the quality of the address lists that we are 
compiling? And then subsequent to operations, what steps has 
the Census Bureau taken to address the concerns that have been 
raised by the inspector general from Commerce?
    Mr. Mesenbourg. The inspector general sent two individuals 
from their office to 15 of our local Census offices. We 
actually have 150 local Census offices established across the 
United States to support the address canvassing. They basically 
followed the address canvassers around, a small sample of them. 
And they noted in six of the sites that some of the address 
canvassers were not following the procedures.
    Two procedures that were noted, they were not knocking on 
the door. This was in our procedure, and we did that for two 
reasons. First of all, to get a good map spot from the GPS, you 
have to be relatively close to the residence. And since 
strangers may be showing up on your front step holding a 
strange device, we thought it was wise to announce our 
presence.
    The other reason to knock on the door, though, is to ask 
the homeowner if they are home--of course, we canvass night and 
into the evening, and sometimes people will not be home. If 
there is an unusual housing arrangement--perhaps they are 
renting out the top floor, perhaps there appears to be a 
building in the back or there may be two rows of doorbells on 
the door. And the earlier panel had talked about some of the 
challenges in the economic downturn. That is one of the 
objectives in address canvassing, is to note that there may be 
multiple housing units in what we would think would be a single 
unit.
    The second concern, some of the rural roads, the address 
canvasser is to go down every twisty road, even if it is a dirt 
road. And they noted a couple cases where the canvasser did not 
do that. What we did, as soon as we got that report, we sent 
out a blanket announcement to all 140,000 canvassers that 
actually shows up on their hand-held computer, to reconfirm 
that you need to follow procedure, you need to knock on the 
door, and you need to go down every road in the rural area.
    We do not think this was a systematic problem, but we were 
concerned that some canvassers were not following procedures. 
Perhaps not a surprise when you have 140,000 people in the 
field, that not everyone follows direction. But as soon as the 
IG made us aware of that information, we put out a blanket 
message to the listers, and we followed up with a telephone 
call with all the regional directors the day after.
    Senator Carper. All right. Thank you.
    We talked a fair amount about overcount and undercount. We 
have a situation where, ironically, folks that are most often 
undercounted are those that live in the most dire economic 
situations, and those that are overcounted are those who tend 
to be more affluent, college-age students who go to schools out 
of State, folks who have second homes, vacation homes, and not 
uncommon for them to be overcounted. Not a good situation and 
one that we certainly tried to address in 2000 and we are 
seeking to address in 2010 even more.
    Let me just ask each of you, are you satisfied thus far 
with the steps that the Census Bureau has taken to address some 
of the problems in the count that showed up in 2000, where we 
had about 6 million people who were undercounted, were not 
counted, and about 3 million who were counted at least twice?
    Ms. Lopez, would you like to go first?
    And again, the question is, how do you feel about the steps 
that the Census Bureau is taking to address the problems that 
we faced in 2000?
    Ms. Lopez. Well, thus far, all the recommendations that we 
have made regarding potential partners for the Census--I know 
that in Delaware, the office has gone forth and spoken to these 
folks all over the State. What partnerships came out of that, I 
am not sure of all the details, but some of them are event 
sponsorships and some of them are much more involved and using 
space for testing, and using space for, hopefully, in the 
future, as a questionnaire assistance center.
    So I feel that in Delaware, we are having a positive 
experience moving forward if all these partnerships are 
critically placed throughout the State. And the concern that 
Director Mesenbourg brought up, I have heard before, that they 
have a good problem and they have a very good workforce because 
of the economy. The concern there, and I want to reiterate, was 
that when you are looking at the hard-to-count areas, these 
folks may not be scoring very high on their tests. But what 
they have to bring to the table is access to a community that 
is not going to open the door to an unknown face.
    So my concern is that if they are given the flexibility to 
hire the best candidate for the hard-to-count areas, and they 
are able, given the flexibility, to have the partnerships 
customized based on the community, if they need to set up a 
store front in a community center that has a high population of 
Hispanics, especially in Wilmington, they should do so. I do 
feel confident that they are going to have much greater success 
in 2010 in capturing this community.
    Senator Carper. Thank you, Ms. Lopez. Ms. Coulter.
    Ms. Coulter. I listened with intent regarding some of the 
things that are being done, and it is quite a management 
undertaking with thousands and thousands of people out there 
doing these types of tasks. But I do think that--I will 
underscore, actually, Ms. Lopez's statements around partnering. 
I think that the key to this is really getting into community-
based organizations who are trusted in these communities.
    Many of us have been around for years, the Urban League for 
nearly a hundred years. And if nothing else, if you walk into 
most African American communities in this city and other cities 
across the country, they will have heard of the organization. 
And it kind of gives you a step in right away because they know 
that while I may not know exactly what it is all about, but I 
know I have heard of it. So really hiring people who are 
trusted folks that can walk into these communities I think is 
critically important.
    Locally, we have also worked with our local office, the 
Census Bureau, in initially helping them reach out to racially-
diverse folks to hire. And I know that more than 50 folks have 
been hired by them. And we would like to do more of that. I 
think the concern, though, for us is that as a nonprofit, 
community-based organization, resources are critical to us. But 
I think that we have proven ourselves by doing some things just 
because we want to be a partner, but then there are probably 
deeper and more complex things that we could do together if we 
had resources to do them.
    Senator Carper. Thank you. Mr. Colon.
    Mr. Colon. I am confident that this 2010 Census is going to 
be the most successful Census ever in the history of the United 
States. However, that does not mean that we do not have some 
concerns in the counting of all Latinos, especially as the ones 
that I mentioned before. The migrant and seasonal farmworker 
community, more than 80 percent of that population is Latino. 
That creates a lot of challenges for us to make sure that we 
are counting the migrant and seasonal farmworker community. In 
addition to that, the immigrant community that is of Latino 
descent. That should be a top priority for us, if we are going 
to make sure that every Latino is counted in the Nation.
    And I would also like to mention that, Senator and the 
congressman, if you can assist some of us really delivering the 
message to our local and State leaders on the importance of the 
U.S. Census. What I mean with this is engaging the National 
Governors Association to make sure that they are really engaged 
in this process the way that we are engaging ourselves, 
especially I am talking on behalf of the U.S. Council on Latino 
Affairs. If our governors are there with us, I think it would 
be a lot more successful for us to make sure we are counting 
every single resident in those respective States.
    Senator Carper. Thank you.
    I have no more questions of this panel. I am going to ask 
Congressman Castle if he would like to make a closing 
statement. I will make a closing statement, and then we will 
call it a day. Thanks.
    Mr. Castle. Thank you, Senator. I have a 40-minute closing 
statement I would like to give now, if everybody is ready for 
that out here in the audience. [Laughter.]
    No, I am pleased to have had the opportunity to be here, 
and I do thank Senator Carper for that. I believe this is a 
very important subject, and I am very pleased with this panel 
and the first panel. I think your suggestions were good. I 
think we all need to pay attention to these suggestions. 
Obviously, saying these things is one thing; carrying them out 
and doing them properly is something else.
    Again, that is the responsibility of those of us who are 
elected officials and those who are working in the Census. But 
I believe that there seems to be a greater focus on this 
particular 10-year cycle than normal. And I think we have an 
opportunity to really make sure we get our count numbers up, 
and I think your testimony today has proven that. And for that, 
we are all very thankful. So thank you.
    Senator Carper. And let me just say thank you so much for 
joining us today on this important occasion.
    A former President of the United States--it might have 
actually been Richard Nixon. Not many people quote Richard 
Nixon these days, but I am going to quote him today. And he 
used to say that ``the only people that do not make mistakes 
are the people that do not do anything.'' And all of us will 
make mistakes in our lives. I say to my sons, who are now in 
college, that there is nothing wrong with making mistakes. The 
key is to learn from those mistakes.
    We have been conducting a Census every 10 years for over 
200 years, and along the way, we have made a lot of mistakes. 
We continued to make those mistakes in 2000 and the intervening 
years up until now. But I am actually encouraged. We had some 
enormous concerns. My staff and I did, and other members of the 
Senate and the House had enormous concerns as we were 
approaching the 2010 Census, and found out how little we were 
planning to use technology to increase the number of people 
that we are counting to reduce the number of errors; and 
enormous concern about the hand-held computers and doing the 
address canvassing and whether or not the technology would 
work, would enable us to be more accurate and to be more 
efficient in the work that we are doing. I am encouraged to 
hear that after a little bit of a late start, it looks like we 
are picking up speed, and the result that we are seeing thus 
far is actually encouraging.
    The concerns raised by the Inspector General of the 
Commerce Department, we had an opportunity for Mr. Mesenbourg 
to respond to those, and I am encouraged that he jumped right 
on it. And he used the technology, the hand-helds, to send out 
messages ASAP, to folks who were walking around with those 
hand-helds to make sure that we addressed those concerns that 
had been raised by the Inspector General.
    The Census, as we all have heard here today, is enormously 
important, as important maybe as any time in our Nation's 
history. As States, cities, counties of all sizes and shapes 
wrestle with the financial difficulties, in some cases 
catastrophes, that they face, they each have a special vested 
interest in making sure that we get this count right. Whether 
the amount of money for an undercount for every person is a 
$100 or $2,000, a lot of money is at stake here. A lot of this 
money at stake is cities, counties and States apply for Federal 
grants. A good deal is at stake in terms of how we elect our 
U.S. representatives, how we apportion our districts, how many 
U.S. representatives a commonwealth like Pennsylvania will 
have, and also to determine how we are going to elect and 
apportion the districts--create the districts for our local 
officials and, in some cases literally for officials on our 
city governments. There is a great deal at stake, and it is 
important that we, to the best of our ability, get this right, 
to the extent we find that we are making mistakes, to correct 
them in the stream, in mid-air, and then to have some lessons 
learned for the next time.
    I do not know that the congressman and I will be back 10 
years from now to do a lessons learned, sort of retrospective. 
We might; you never know. But I am very grateful that each of 
you were able to set time aside in your day and those who 
joined us. I want to say a special thanks to our staff who 
worked for weeks to put this hearing together.
    A friend of mine, Lamar Alexander, a former governor, now 
serves in the U.S. Senate, he likes to talk about hearings as 
talkings. He says they are really misnamed. They should not be 
called hearings; they should be called talkings because all the 
senators do, they come to these hearings and talk. And I just 
want the record to show that Congressman Castle and I listen a 
fair amount. We talk some, but we listen a whole lot. And you 
gave us a whole lot to chew on and to take home with us, and to 
take us back to our respective responsibilities.
    So with that having been said, special thanks to everyone 
here at the center for hosting us today and for all of our 
witnesses who have been a part of this presentation. Thank you 
all. And with that, this hearing--not this listening. This 
hearing is adjourned. Thank you.
    [Whereupon, at 3:15 p.m., the Subcommittee was adjourned.]


















                            A P P E N D I X

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
